                          Performance Audit Report 





       The SBA Did Not Effectively Manage Defaulted Disaster Loans 


                     to Maximize Recovery from 2006 to 2011 





                                    Final Report 


                                For Official Use Only 





September 27, 2013                                              Report Number 13-18 

                                       U.S. Small Business Administration 

                                           Office of Inspector General 

                                             Washington, D.C. 20416 





                                                                               FINAL REPORT TRANSMITTAL
                                                                                        REPORT No. 13-18


DATE:           September 27, 2013

To:             John A. Miller
                Director, Office of Financial Program Operations


SUBJECT: 	      The SBA Did Not Effectively Manage Defaulted Disaster loans to Maximize Recovery
                from 2006 to 2011

This report presents the results of our audit of the National Disaster Loan Resolution Center's
operations. Our audit objectives were to determine whether the Small Business Administration
National Disaster Loan Resolution Center: (1) effectively managed delinquent disaster loans to
maximize recovery and minimize losses, (2) complied with applicable laws and regulations, and (3) had a
mission aligned with Federal debt collection objectives.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our finding s and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We request that you provide your management decision for each recommendation on the attached
SBA Form 1824, Recommendation Action Sheet, by October 3D, 2013. Your decision should identify the
specific actions taken or planned for each recommendation and the target dates for completion.

We appreciate the courtesy and cooperation of the Office of Financial Program Operations during this
audit. If you have any questions concerning this report, please call me at (202) 205-6586 or
Terry Settle, Director, Credit Program s Group, at (703) 487-9940 .

                                                  ... 

lsi
Robert A. Westbrooks
Deputy Inspector General
What DIG Audited
The objectives of this aud it were to determine                     using all appropriate collection tools to maximize
whether the National Disaster Loan Resolution Center                recove ry.
(NOLRe): (1) effectively managed delinquent disaster
loans to maximize re wvery and minimize losses, (2)                 Specifically, the NDLRC did not: (1) transfer all non­
complied with applicable laws and regulations, and (3)              exempt delinquent debts to Treasury cross servicing
had a mission aligned with Federal debt collection                  and offset; (2) analyze most delinquent debts for
objectives.                                                         workout and restructuring potential; (3) liquidate loan
                                                                    coll ateral; (4) renew UCC financing statements to
To accomplish these objectives, we evaluated the                    retain SBA's lien priority in non-real estate collatera l;
NDLRC operations overall, including its monitoring and              or, (5) refer offer-in-compromise settlement s for
tracking of delinquent debts recovered and the debt                 debts above $500,000 to the Headquarters Claims
collection training it provided for staff.                          Review Committee.

Add itionally, we reviewed a statistically valid, random            DIG Recommendations
sample of 65 loans of the 9,035 loans the NOLRC                     The DIG recommended seven corrective actions. We
charged off between June 2006 and June 2011. We                     addressed these actions to the Director, Office of
tested the loans to determine whether the NOLRC                     Financial Program Operations.
used all required collection tools, including: (1)
t ran sferring all borrowers and guarantors for the                 Management Response and Actions Taken
defau lted debts to Treasury for cross serviCing                    The SBA agreed w ith four of the seven
(collection) and offset; (2) analyzing the loans for                recommendations in this report and stated that it has
potential debt restructuring (workouts) in accord ance              ta ken steps to address m any of the recommendations.
with the Standard Operating Procedures; (3)                         Specifically, SBA management stated that it : (1) is
liquidating the collateral; (4) renewing the Uniform                working with Treasury to develop a new process for
Commercial Code (UCe) financing statements to                       the transfer of collateralized debt to Treasury; (2) will
preserve the SBA's security interest in non-re al estate            evaluate existing management controls to ensure
collateral, and (5) approving offers-in-compromise for              legally enforceable debts are transferred to Treasury
unpaid loan balances, in accordance with the SOP.                   appropriately; (3) offered training rel ated to
                                                                    performing workouts; (4) will provide additional
We also obtained a list of all loans the NOLRC charged              training for applicable staff; (5) developed and
off from June 2006 to June 2011 that were                           implemented a charge-off checklist; (6) w ill develop a
inappropriately designated to prevent transfer to                   plan to ensure security agreement expiration dates
Trea su ry cross servicing because the loans had real               are identified and tracked, and security agreements
estate collateral.                                                  are renewed prior to their lapse dates; and P) will
                                                                    update its Standard Operating Procedures for Disaster
What DIG Found                                                      Loan Servicing and Liquidation by September 3D, 2013.
We determined that the NOLRC did not effectively
manage delinquent disaster loans to maximize                        Additionally, the NDlRC created a foreclosure team to
recovery and minimize losses. During the five-year                  manage the foreclosure and liquidation of real estate
period from June 2006 through June 2011, we                         assets associated with defaulted loans. In February
estimate that the NDLRC charged off at least                        2012, the NDLRC began to initiate foreclosures.
$752.6 million l in defaulted disaster loans without



1 We based this estimate upon the lower bound of the statistica l
error rate pl"ojedions. Therefore, this figure pro~ides the most    impact. Refer to Appendix II, Sampling Methodology, of this report
conser~a tive estimate for err:lf rate occurrence and monetary      for further details.
Table of Contents
Introduction ................................................................................................................................4 

RESULTS ...................................................................................................................................... 8 

   FINDING: Ineffective Management Resulted in the SBA not Maximizing Recovery for $752.6 


   Million in Defaulted Disaster Loans . ........................................................................................ 8 


       $373.1 Million Designated to Block Transfer to Treasury Due to Management Collateral 

       Policy ................................................................................................................................ 10 


       Recommendation 1 ........................................................................................................... 13 


       $149 Million Not Transferred to Treasury Cross Servicing-Unrelated to Collateral Policy ... 13 


   $264.4 Million Not Transferred to Treasury for Offset ........................................................... 14 


       Recommendation 2 ........................................................................................................... 14 


   $363.8 Million Charged Off without Proper Workout Analysis ............................................... 15 


       Recommendation 4 ........................................................................................................... 17 


   $83 Million in Collateral Not Liquidated by NDLRC Prior to Charge-Off .................................. 18 


       Recommendation 5 ........................................................................................................... 20 


   Lien Priority in Non-Real Estate Collateral Lost for Loans with Balances Totaling At Least $40.3 


   Million .................................................................................................................................. 20 


       Recommendation 6 ........................................................................................................... 21 


   $10.5 Million Loan Improperly Settled ................................................................................... 21 


       Recommendation 7 ........................................................................................................... 22 


NDLRC Operations Were Not Designed to Achieve Effective Debt Recovery .............................. 22 

    Recommendation 8 ........................................................................................................... 25 


   Management Actions Taken and in Progress ......................................................................... 25 


   Conclusion ............................................................................................................................ 26 


Appendix I: Scope and Methodology ........................................................................................ 34 

Appendix II: Sampling Methodology ......................................................................................... 38 

Appendix III: List of Exceptions ................................................................................................. 40 

Appendix IV: Management Comments ..................................................................................... 42 

Exhibit I: Treasury Memorandum Approving Workout Exemption ............................................ 52 

Exhibit II: Treasury Memorandum Explaining Support for Workout Exemption ......................... 55 

Exhibit III: Treasury Letter Confirming Debts with Collateral Not Exempt from Treasury Cross 

Servicing ................................................................................................................................... 60 

Introduction

This is the third in a series of reports presenting the overall results of our audit of the
effectiveness of the Small Business Administration's National Disaster Loan Resolution
Center (NDlRC) operations. Our first report addressed the NDLRC's non-compliance
w ith the Debt Collection Improvement Act for loans in liquidation inventory with
principal balances totaling $171.1 million. Our second report addressed the need for
the Office of Financial Program Operations to renew the Uniform Commercial Code
Financing statements for disaster loans with principal balances totaling $5.6 million.
For additional information about these reports, please see Appendix 1.

Objectives, Scope and Methodology

Our audit objectives were to determine whether the NDLRC: (1) effectively managed
delinquent disaster loans to maximize recovery and minimize losses; (2) complied with
applicable laws and regulations; and (3) had a mission aligned with Federal debt
collection objectives.

To accomplish these objectives, we evaluated the NDLRC operations overall, including
its monitoring and tracking of delinquent debts recovered and the debt collection
training it provided for staff. During the audit, we conducted two site visits at the
NDLRC and interviewed key personnel. We also conducted telephone interviews of
some NDLRC staff and of SBA management responsible for oversight of the NDLRC.

Additionally, we reviewed a statistically valid, random sample of 65 loans of the 9,035
loans the NDLRC charged off between June 2006 and June 2011. We tested the loans to
determine whether the NDLRC used all required collection tools, including:(1)
transferring all borrowers and guarantors for the defaulted debts to Treasury for cross
servicing (collection) and offset; (2) analyzing the loans for potential debt restructuring
(workouts) in accordance with the Standard Operating Procedures; (3) liquidating the
collateral; (4) renewing the Uniform Commercial Code (UCC) financing statements to
preserve the SBA's security interest in non-real estate collateral; and (5) approving
offers-in-compromise for unpaid loan balances, in accordance with the SOP. We also
obtained a list of all loans the NDLRC charged off from June 2006 to June 2011 that were
inappropriately designated to prevent transfer to Treasury cross servicing because the
loans had real estate collateral.

We conducted our review between April 2011 and February 2013. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                         4
           Background

           The Small Business Administration

           The mission of the Small Business Admi ni stration (SBA or the Agency) under the Small
           Business Act, as amended, is to maintain and strengthen the Nation's economy by
           enabling the establishment and vita lity of small businesses and assisting in the economic
           recovery of communities after disasters.

           Disaster Assistance

           The Disaster Loan program plays a vital role in the aftermath of disasters by providing
           long-term, low-interest loans to affected homeowners, renters, businesses of all sizes,
           and non-profit organizations. Following a disaster, the SBA offers disaster victims
           (1) home loans to repair or replace damaged real estate or personal property,
           (2) business loans to repair or replace damaged property, and (3) economic injury
           disaster loans to provide business working capital during disaster recovery.

                                                                           2
           According t o the Code of Federal Regulations or CFR, the SBA requires borrowers to
           pledge avai la ble collateral to the SBA t o secure the loan if the loan amount exceeds
           $14,000 for disaster home loans or physical business loans, and $5,000 for economic
           injury loans. The coll ateral for a disaster home loan may include the damaged property,
           a replacement property, and other property owned by the borrower. The collateral for
           a busi ness loan may include business assets such as machi nery and equipment, furniture
           and fixtures, inventory, and account s receivables in addition t o real estate collateral.
           During loan origination, SBA' s Processing and Disbursement Center is responsible for
           securi ng the loan with the best avai lable collateral.

           Disaster l.oan Servicing and Liquidatian

           The SBA disaster loan servicing centers located in Birmingham, Alabama, and EI Paso,
           Texas perform routine loan servicing actions . They also are responsible for issuing late
           payment notices, initiating automated telephone ca lls to borrowers, and working with
           delinquent borrowers to provide repayment arrangements and deferrals
           (postponement in payments).

           When a delinquent borrower does not resume loan payments, disaster loan servicing
                                       3
           center staff may charge off the loan if it is unsecured or the loan balance is $25,000 or
           less. The disaster loan servicing centers transfer all secured loans with balances over
           $25,000 to the SBA's National Disaster Loan Resolution Center (NDLRC) located in Santa
           Ana, California .

           Formerly known as the Santa Ana Disaster Home Loan Servicing Center and Di saster
           Liquidation Office, the NDLRC discontinued home loan servici ng in April 2006.
           The internal memorandum establi shing the NDLRC stated that it was dedicated t o:



1 13 CFR 123.11. 

l Charge off is the process by wh ich SBA r&og nizes a loss and removes the uncoll & tible account from its acti ve r&eivabl e accounts. 


                                                                    5
          (I) working out payment arrangements on seriously delinquent loans, (2) liquidating
          loan collateral, and, (3) overseeing litigation of disaster and business loans.

          The NDLRC issues demand letters to primary borrowers, garnishes some borrowers'
          wages in order to collect delinquent debts, and refers some debtors to the Department
          of Justice (DOJ) for litigation. It is responsible for liquidating any loan collateral with
          value if there is no reasonable prospect of the borrower repaying the loan. Following
          liquidation of loan collateral with value, the NDLRC is responsible for charging off the
          loan. According to the loan Liquidation and Acquired Property Standard Operating
          Procedure,4 charge off is justified when the SBA has completed all required liquidation
          and collection actions, and further collection of any substantial portio n of the debt is
          doubtful.

          The Debt Collection Improvement Act of 1996

          One of the primary purposes of the Debt Collection Improvement Act of 1996 (DCIA) is
          "to maximize collections of delinquent debts owed to the Government by ensuring quick
          action to enforce recovery of debts and the use of all appropriate collection tools."
          An additional purpose of the DCIA is to consolidate debt collection activities within the
          government to minimize the government' s delinquent debt coll ection costs. The DCIA
          centrali zed delinquent debt collection at the United States Department of the Treasury
          (Treasury), requiring Treasury to pursue delinquent debts that are not actively being
          collected by Federal creditor agencies, a program known as cross servicing.

          Treasury Cross Servicing

          When Federal agencies refer delinquent debts to Treasury for cross servicing, they
          relinquish all responsibility for servicing or collecting the debts. In order to accomplish
          the transfer of delinquent debts to Treasury for cross servicing, the SBA first charges off
          these debts. Treasury then uses a variety of collection tools to coll ect a debt once an
          agency refers it to the cross-servicing program. The tools Treasury uses include:

               • 	 Treasury demand letters;
               • 	 telephone calls between debtors and Treasury personnel to negotiate
                   repayment arrangements;
               • 	 credit bureau reporting;
               • 	 referral to at least one private collection agency;
               • 	 administrative wage garnishment;
               • 	 referral to the Department of Justice for litigation; and,
               • 	 reporting of unpaid debts to the Internal Revenue Service as potential income to
                   the debtor.

          Treasury Offset

          The DCIA also establi shed a centrali zed process at Treasury known as t he "Treasury
          Offset Program," or TOP. The TOP offsets government payments due to borrowers,

• sOP so 512, effedive Oecember 1,1997, page 18·2.

                                                     6
          such as income tax refunds and social security payments, and redirects them to Federal
          creditor agencies to which the borrower owes a delinquent debt. When agencies
          submit delinquent debts to Treasury for cross servicing, Treasury also subm its the debts
          to TOP. Transferring all delinquent debts to Treasury for cross servicing and offset
          w hen they beco me over 180 days delinquent ensures that the SBA complies w ith the
          DCIA and facilitates the collection of funds owed to the taxpayers.

          Debts Exempt from Mandatory Transfer to Treasury

          The DelA states that agencies must refer all debts delinquent more th an 180 days to
          Treasury Financial Management System for cross servicing and offset. However, there
          are some exceptions to this requirement. Specifically, the DCIA states that the
          requirement to transfer debts to Treasury excludes those that:

                    (1)   are in litigation or foreclosure, or
                    (2)   will be disposed of under an asset sa les program within one year, or
                    (3)   have been referred to a private collection contractor, or
                    (4)   have been referred to a debt collection center, or
                    (5)   will be collected by internal offset within 3 years, or
                    (6)   are a class of debts specifically determined by the Secretary of Treasury at
                          the request of the Agency head.

          Treasury has also exempted debts in wage garnishment, which meet certain criteria,
          from mandatory transfer. Additionally, in January 2000, Treasury granted the SBA a
          specific exemption from transferring debts in active workout status. According to a
          January 3,2000, memorandum from the Fiscal Assistant Secretary of Treasury to the
          SBA (Exhibit II ), active workout status means that the SBA is attempting to bring the
          debt current with debt servicing tools (such as rescheduling or deferment of payments),
          rather than liquidating or foreclosing on the collateral for the debt.

          If a debt is exempt from transfer to Treasury cross servicing, the SBA identifies it with a
          unique code, called the loan-status comment code, prior to charging off the loan.
          Thi s code is used to block the loan from automated transfer by the SBA Portfolio
          Management Treasury System w hen the charge off occurs.

          Review of Internal Controls

          Internal control includes the plan, policies, methods, and procedures adopted by
          management to meet its missions, goals, and objectives. It includes the systems for
          measuring, reporting, and monitoring program performance. Internal control serves as
          a defense in safeguarding assets and in preventing and detecting errors, fraud,
          noncompliance with provisions of laws, regulations, contracts or grant agreements, or
                 s
          abuse.

          Effective December 1, 1997, Standard Operating Procedure (SOP) 50 512, Loan
          Liquidation & Acquired Property, was the primary internal control governing the SBA


s GAO. 12.331G Go~ernment Auditing StandardS.


                                                       7
           loan liquidation activities. We tested the NDlRC's compliance with various internal
           controls provided by SOP 50 51 2. We determined that the NDlRC did not consistently
           comply with these controls. Specifically, we identified control breakdowns related to
           repayment arrangements (workouts), the liquidation of collateral, and offers-in­
           compromise.

           We identified numerous other internal control weaknesses at the NDlRC.
           Implementing the recommendations in this report will address the identified internal
           control weaknesses and improve the Agency's recovery of delinquent debt associated
           w ith disaster loans.

            Nature of limited or Omitted Information

           We did not omit information due to confidentiality or sensitivity, nor were there
           limitations to information obtained during the audit.


            RESULTS

                  FINDING: Ineffective Management Resulted in the SBA not Maximizing
                        Recovery for $752.6 Million in Defaulted Disaster Loans

           We determined that the NDlRC did not effectively manage delinquent disaster loans to
           maximize recovery and minimize losses. The NDlRC did not use all of the appropriate
           collection tools required by the Debt Collection Improvement Act (DCIA) or its own
           Standard Operating Procedures prior to charging off delinquent and defaulted disaster
           loans. Specifically, the NDlRC did not:

                       (1) transfer all of the debts to Treasury for cross servicing and collection, or
                       offset;
                       (2) analyze all of the loans for the potential of offering a workout in accordance
                       with its standard operating procedures;
                       (3) liquidate loan collateral;
                       (4) renew the financing statements necessary to retain the SBA' s lien position in
                       the collateral for some loans; or
                       (5) refer compromise offers for debts in excess of $500,000 to the Headquarters
                       Claims Review Committee (HCRe) for approval as required by the NDLRC's
                       standard operating procedures.

           We estimate that between June 2006, when the NDlRC became operational in its
           present form, and June 20ll, it did not maximize recovery for at least 7,198 loans with
                                                             6
           balances totaling approximately $752.6 million. The exact amount the SBA could have
           recovered if it had taken all of the above listed actions is not readily quantifiable.
           However, the SBA can sti ll recover a portion of the balances of the charged off loans by



• We based this est ima te upon t he lower bound of th e stati stical error rate project io ns. Therefore, this figure provi des t he most
conserva t ive est imate for error rate occu rr ence and monetary impact. Refer to Appendi x II, Sampling M et hodology, of t his report
for further de:ails.


                                                                     8
           referring these debts to Treasury for cross servicing and offset. Based upon estimated
           collection rates provided by Treasury, the SBA could recover approximately
           $22.3 million' if it transfers all of the charged off loans to Treasury cross servicing.
           Additionally, the SBA could also recover $6 m illion if it now transfers all of the debts for
           offset. We further estimate that the SBA could recover another $11.3 million over the
           next two years by ensuring that all charged off disaster debts are transferred to
                                                      s
           Treasury for cross servicing and offset.

           One purpose of the DCIA is to ensure that Federal agencies "maximize collections of
           delinquent debts owed to the Government by ensuring quick action to enforce recovery
           of debts and the use of all appropriate collection tools." Further, the Office of
           Management and Budget Circular A-129, Policies for Federal Credit Programs and Non­
           Tax Receivables, requires each agency to use the full range of available and appropriate
           delinquent debt collection techniques. However, we determined that the NDLRC did
           not use the full range of appropriate debt collection techniques.

           We reviewed a statistically valid, random sample of 65 of the 9,035 loans the NDLRC
           charged off between June 2006 and June 2011. Based upon our review of the loan file
           documentation and related electronic Loan Accounting System information, we
           concluded that the NDLRC did not maximize reco very for 61 of the 65 loans from our
           audit sample. The NDLRC could not reco ver the outstanding balances for the remaining
           four loans from our audit sample because these debts were discharged in bankruptcy.
           We determined that the NDLRC did not use all collection tools required by the DCIA or
           its own SOPs prior to charging off the 61 loans. Therefore, the NDLRC did not maximize
           recovery for those loans in our sample.

           The table below identifies the underlying reasons the NDLRC did not succeed in
           maximizing reco very. First, the table provides the dollar value of the loans the NDLRC
           designated to block their transfer to Treasury Cross Servicing due to management's
           collateral policy. The table also identifies the collection actions the NDLRC did not
           perform for some delinquent disaster loans and the dollars associated with those loans.
           Additionally, the table indicates actions the NDLRC should have taken to protect the
           SBA's lien position in collateral and to ensure that it maxi mized dollars recovered
                                        9
           through settlement offers.




7 Based upon Treasury's estimated tolledion rates. the SBA tould potentially r~over approximately $15.9 million ($373.1 million x
4.27 perten t ) t hrough cross servicing from the charged off loans not ref erred due to coll at eral an d an additional $6.4 million ($ 149
million x 4.27 percent) th rough cr oss servici ng fro m t he cha rged off loans that di d not have associated coll ateral. 

8 We estimate that the 5BA will rEM:over an additional $6.4 million ($373.1/60 months x 24 months x 4.2 7 pertent) over the ne xt two 

years by discontinuing its practice of bloc king the transfer of loans with real estate collatera l to Treasury crOiS servicing. 

Additio nally ......e estimate t he SBA will recover $2.5 million ($149 million /60 x 24 x 4.27 percent) over the next two years by ensuring 

all debts without collateral are tra nsferred to Tr easury cross servicing. We fu rther est imat e that the SBA wi ll r~over $2.4 million 

($264.4/60 x 24 x 2.26 perce nt) over the next two years if it transfers all defaulted disaster debts to Treasury for offset. 

' We identified multiple errors associated with each of the loans in the statistical sample we reviewed. Therefore, we did not 

aggregate the dollar values repcxted into a single total. 



                                                                      9
Tablc I Munetary Impa(t Assod:lIcd Ilit h NDLRC Debt RcwI'cry Errors


                                                                                 Charged Off Dollars
             Causes for Not Mallimizing De linquent Debt Recovery                 Associated with
                                                                                  Specific Causes
                                                                                    (in Millions)
  Designated to Blod Transfer to Treasury Cross Servidng Due to Management
  Collateral Policv                                                                    $373.1
  Not Transferred to Treasury Cross Servicing - Unrelated to Collateral Poli(V         $149.0
  Not Transferred to Treasury Offset                                                   $264.4
  Loan Not Analyzed for Workout/Restructuring Potential Per SOP
  Requirements                                                                         $363.8
  Loan Collateral Not Liquidated                                                       $ 83.0
  UCC Finandng Statements Not Renewed to Retain Lien Position in Collateral            $40.3
  Dffer·in·Compromise Settlements Above $500,000 Not Referred to HeRe                  $10.5



We concluded that the NDLRC did not maximize recovery for delinquent and defaulted
disaster loans prior to charging them off because SBA management did not:

    (1) full y adhere to the Debt Collection Improvement Act or existing controls,
    including Standard Operating Procedures;
    (2) include requi rements of t he DelA in the SOP;
    (3) provide oversight of loan coll ateral, or have an effective Management 

    Information System to monitor and track the collateral; 

    (4) align the NDLRC mission w ith Federal debt collection objective~; or,
    (5) ensure that management and staff performance goals emphasized effective
    debt reco ve ry.


$373.1 Million Designated to Block Transfer to Treasury Due to Manage ment
Collateral Policy
A primary purpose of the DCIA is to "maximize collections of delinquent debts owed to
the Government by ensuri ng quick action to enforce recovery of debts and the use of all
appropriate collection tools ." Further, the DCIA requires agencies to transfer all legally
enforceable, non-exempt debts delinquent over 180 days to Treasury for cross servicing
and offset. However, the SBA implemented a management policy to prevent the
transfer of defaulted disaster loans w ith real estate collateral to Trea~ury for cross
servicing and collection action . At the time of charge off, the NOLRC abandoned the
loan collateral, but flagged all disaster loans with real estate coll ateral and coded them
w ith the loan-status comment code to prevent the SBA's Portfoli o Management
Treasury system from transferring the debts to Treasury for cross servicing. This policy
did not fully comply w ith the DCIA requirements.

We obtained a list of 9,035 loans with principal balances tota ling $762.7 milli on th e
NDLRC charged off between June 2006 and June 2011 from the SBA Office of the Chief
Information Officer. From these loans, we extracted those the NDLRC designated as
having real estate coll ateral to prevent their transfer to Treasury cross servicing




                                              10
           following charge off. The NDLRC used a loan-status comment code that indicated the
           presence of real estate collateral, intended to block the transfer of these debts.
           We determined that during the five-year period, the NDLRC designated 3,887 loans­
           w ith principal balances totaling $373. 1 million-to block their transfer to Treasury cross
           servicing. Management believed the loans were exempt from transfer because the SBA
           had real estate liens secu ring the loans.

           The SBA Based its Collateral Policy on Interpretation of a Treasury Memorandum

           Management developed its policy of not transferring defaulted debts with collateral to
           Treasury because of its interpretation of letters it received from Treasu ry in
           January 2000. One letter granted the SBA a speci fic exemption from transferring debts
           in active workout status (see Exhibit I). Because of the way the Treasury letter to the
           SBA was phrased, management interpreted it to imply that all loans with collateral were
           exempt from transfer to Treasury for cross servicing.

           A second letter from Treasury noted that:

                       In a letter dated November 23, Department ofJustice strongly asserted that
                       collateralized debt should not be referred for cross servicing prior to foreclosure
                       because cross-servicing collection actions risk compromising the Government's
                       ability to collect against the collateral.

           However, the NDLRC had already charged off the 3,887 loans it designated with the
           loan-status comment code to block transter to Treasury. According to the loan
           liquidation SOP,tO charge off is justified when the SBA has completed all required
           liquidation and collection actions and further collection of any su bstanti al portion of the
           debt is doubtful. Therefore, the NDlRC was unlikely to foreclose or liquidate any loan
           collateral for the 3,887 charged off disaster loans it did not transfer to Treasury.
           According to the SOP, the NDLRC should have completed all required liquidation and
           collections actions prior to charge off and the charge off action wou ld only be justified if
           further collection of any substantial portion of the debt was doubtful. By charging off
           the loans, the NDlRC indicated that it had completed all required liquidation and
           collection efforts and it deemed the loans uncollectible.

                                                      ll
           Additionally, Federal statutes require that agencies initiate collection actions on
           delinquent debts within six years. If more than six years from either the date of
           delinquency or date of demand for payment elapse, generally, the Government no
           longer has the legal right to litigate to collect these debts.12 Therefore, the SBA must
           ensure that it promptly transfers all delinquent debts to Treasury for collection.
           Since the SBA does not use private collection agencies as a collection tool, it is critical
           that it transfer delinquent debts to Treasury cross servicing for collection.

           The Treasury letter exempting the SBA from referring delinquent debts to cross
           servicing if they are in active workout (Exhibit I) stated that:

10 sOP so SI 2, effective December 1, 1997. 

"28 USC Section 241S (a). 

li The statute of limitations does not apply to foreclosure actions. 


                                                                    11
        Once SBA determines that a workout is not feasible and, in the case of
        collateralized laans, completes its liquidation/foreclosure, any remaining
        delinquent debts remain subject to the DC/A's mandatory transfer provisions.

Thus, according to the letter, after the SBA liquidates collateral with value, should the
loan balance not be paid-in-full, the SBA must transfer the unsatisfied portion of the
debt to Treasury. The Treasury letter concluded that:

        Additionally, all other debts over 180 days delinquent are subject to mandatory
        transfer to Treasury under the DCIA, unless 0 specific statutory or regulatory
        exemption applies.

The January 2000 letter that Treasury provided the SBA to clarify its decision to exempt
loans in active workout status from transfer to Treasury (see Exhibit II) stated that:

        In attempting to restructure or otherwise workout its delinquent business loans,
        SBA is attempting to keep the small business in operation.. premature
        determinations to liquidate or foreclose would interfere with the program goal
        of keeping the small business operational.

We believe the guidance Treasury provided to the SBA supported the Agency's strategy
to offer borrowers an opportunity to work out a satisfactory repayment arrangement
rather than foreclosing and liquidating loan collateral within the initial 180 days of
delinquency. According to Treasury, in the case of business loans, not liquidating
collateral prematurely would help keep small businesses operational. However, the
3,887 defaulted loans that were designated to block their transfer to Treasury because
the loans had real estate collateral were loans charged off by the SBA. Therefore, the
SBA was unlikely to provide these borrowers with future workout opportunities or
liquidate the loan collateral.

The DIG contacted Treasury to determine if its letter had granted the SBA an exemption
from referring collateralized delinquent debts to Treasury for cross servicing. Treasury
indicated that the only special exemption it had granted to the SBA was from
transferring debts in workout status.

Subsequently, the DIG facilitated a meeting between Treasury officials and SBA
management on February 7, 2013. The purpose of this meeting was for Treasury to
clarify that the Agency is required to send all debts delinquent over 180 days to Treasury
for cross servicing, whether or not the debts have associated collateral. Treasury
officials confirmed that although Treasury did grant the SBA a specific exemption from
the requirement to transfer delinquent debts in workout status, it did not grant the SBA
an exemption from transferring collateralized debts.

At the request of the DIG, Treasury provided written confirmation that the only
exemption from transferring delinquent debts it granted to the SBA applied to debts in
workout status. In this letter, Treasury stated that it understood how the SBA may have
interpreted its previous written guidance to imply that debts with collateral did not have

                                        12
to be transferred for cross servicing. The letter also stated that it is working with SBA
management to facilitate transfer of collateralized debt. (See Exhibit III).

Treasury management indicated a w illingness to work cooperatively with the SBA to
address any concerns the Agency may have regarding the transfer of loans w ith
collateral. At the February 7, 2013, meeting, Treasury management stated they would
transfer any specific collateralized loan back to the SBA upon request in order for the
SBA to liquidate the collateral. In its March 1, 2013, letter to the DIG, Treasury stated it
would not release any SBA liens without receiving SBA's prior consent. These measures
indicate Treasury's intent to facilitate SBA's com pliance with the DCIA.


Recommendation 1

We recommend that the Director, Office of Financial Program Operations, mandate that
the NDlRC comply with the DelA and, develop, and implement management controls
and processes related to debts, to ensure

a.   That all eligible charged off loans now designated with loan status comment code
     "66" are transferred to Treasury for cross servicing promptly.
b.   That the NDlRC does not designate loan s charged off in the future to block their
     transfer to Treasury for cross servicing because the loans have un-liquidated real
     estate collateral.


$149 Million Not Transferred to Treasury Cross Servicing-Unrelated to Collateral
Policy
We performed a review of a statistical sample of 65 loan s the NDlRC cha rged off
between June 2006 and June 2011 to determ ine if the SBA transferred them to Trea su ry
for cross servicing and offset as required. The SBA did not transfer 20 of the 65 loans
due to the automated system failure to transfer some loa ns or the lack of a monitoring
process for loans in litigation after charging off the loans. We estimate the SBA did not
transfer approximately $149 million in defaulted debt to Treasury for cross servicing and
collection due to these deficiencies.

The NDlRC's practice was t o rely upon the Portfolio Management Treasury System to
transfer, successfully, all debts designated for transfer to Treasury. This mainframe
computer system uses batch processing to select loans for transfer to Treasury.
The NDlRC had no reconciliation process in place to verify that Treasury received all
debts intended for cross servicing and collection. Although the NDlRC intended for the
SBA to transfer 11 of those 20 loans to Treasury, the transfer process was unsuccessful
and Treasury did not recei ve the debts. The NDlRC did not utilize Treasury's system to
verify that it received the debts, nor were the debts manually entered into Treasury's
system. Further, NDlRC management did not know that Treasury had a system that the
NDlRC staff could access to verify that the debts were successfully transferred. Had
the NDlRC management known about the Treasury system, they could have trained the
staff to use it to verify that Treasury received all debts intended for transfer to Trea su ry.
Therefore, w hen NDlRC staff recognized that Treasury had not received the debts, with

                                          13
          appropriate training, they could have manually entered the debts into the Treasury
          system for cross servicing and collection.

          The SBA did not transfer 4 of the 20 loans from our revie w sample to Treasury for cross
          servicing and collection, as required, because the NDLRC also lacked controls to monitor
          loans in litigation after loan charge off. Specifically:

                • 	 Two loans designated as "in litigation" involved bankruptcy of one or more, but
                    not all, of the borrowers or guarantors. Currently, when the SBA codes a loan to
                    indicate that there is an associated bankruptcy, the accounting system prevents
                    the transfer of all associated borrowers and guarantors to Treas ury for
                    collection. This problem was previously identified in an audit of the SBA's
                    financial statements, performed by an external accounting firm . According to
                    the accounting firm' s November 2011 Management Letter, which provided
                    updates on the progress of the issues identified in its 2010 Financial Statement
                    Audit, the SBA is taking steps to correct this issue.
                • 	 After the judge dismissed the bankruptcy for one loan in our sample, the SBA
                    never transferred the debt to Treasury for collection.
                • 	 The NDLRC intended to refer the final loan to legal counsel for litigation;
                    therefore, the loan was designated as "in litigation" to prevent transfer to
                    Treasury for collection. However, the NDlRC never referred the loan for
                    litigation or transferred it to Treasury for collection.

          We could not determine the reason the NDLRC did not transfer the fi ve remaining loans
          of the 20 loans not transferred to Treasu ry cross servicing .

           $264.4 Million Not Transferred to Treasury for Offset
          In addition to re viewing the sample of 65 charged off loans to determine whether the
          SBA transferred them to Treasury for cross servicing, we also verified whether the SBA
          referred the debtors for these loans to Treasury offset. 13 We determ ined that the SBA
          was required to transfer debtors for 53 of the 65 loans to Treasury for offset. However,
          the SBA did not refer one or more debtors for 29 of these 53 loans, approximately 55
          percent, to Treasury for offset. We estimate that the SBA did not refer all debtors for
          2,257 loans, totaling at least $264.4 million, for offset as required. Therefore, Treasury
          was unable to offset any Federal benefits that these defaulted borrowers may have
          been receiving.

           Recommendation 2

          We recommend that the Director, Office of Financial Program Operations, mandate that
          the NDlRC comply w ith the DCIA by developing and implementing management controls
          and processes related to debts, to ensure

          a. 	 The Transfer of all legally enforceable debts already charged off. to Treasury for
               cross servicing.


U Th e Treasury offset prog ram offsets governmen t payments due to borrowers, such as income taK refunds and social s&uri ty
payments, and redireds them to Federal credi tor agencies to which the borrower owes a delinquent debt.


                                                                14
          b. 	 That all debtors associated with charged off legally enforceable debts, required to
               be transferred to Treasury for cross servicing and offset, are successfully
               transferred.
          c. 	 Monitoring of loans in litigation after charge off, to confirm transfer to Treasury for
               collection if litigation is dismissed.

          Recommendation 3

          This recommendation was consolidated with recommendation two after receiving SBA
          Management's comments to the draft report.


          $363.8 Million Charged Off without Proper Workout Analvsis
          We estimate that between June 2006 and June 2011 the NDLRC charged off 3,028 loans
          w ith balances estimated to be at least $363.8 million, without providing a proper
          workout analysis. The loan liquidation and Acquired Property SOP14 required staff
          to: (1) work with the borrower to structure a workout whenever feasible; (2) determine
          whether restructuring the repayment plan would help the borrower pay the debt, and
          (3) determine if the borrower's cash flow could support the workout plan. However,
          based upon our review of a statistical sample of 65 charged off loans, the NDLRC did not
          always comply with these requirements. Further, from the 65 loans reviewed, we
          determined that 18 of the borrowers contacted the SBA because they were unable to
          make their loan payments. The NDlRC, however, did not offer to restructure the loans
          for 16 of the 18 borrowers. Further, only 2 of the 18 borrowers were offered the
          opportunity to restructure their loans. We also concluded that the NDlRC did not
          determine if the borrower's cash flow could support a workout plan for any of the 18
          borrowers who contacted the SBA for help.

          Workouts
          Of the 18 primary borrowers who contacted the NDLRC to request a workout, none
          received a restructured repayment plan as permitted by the SOP. We determined that
          of the 18 borrowers:

               • 	 14 borrowers were provided an informal workout-the opportunity to make
                    three payments and have their loan returned to regular servicing;
               • 	 two borrowers were offered a workout as required by the SOP-the
                   opportunity to permanently restructure their loan terms; however, the
                   borrowers never completed the necessary paperwork; and,
               • 	 two borrowers contacted the NDlRC and specifically requested a workout;
                   however, there is no evidence that the NDlRC responded to the borrower's
                   requests. The NDlRC appears to have charged off the loans off without calling
                   the borrowers or otherwise responding to their requests for a workout.

          The SBA's standard process was to issue multiple collection notices that instructed
          delinquent borrowers to contact the SBA ifthey were unable to make their disaster loan
          payments. However, these notices did not specifically offer repayment arrangements,
          or offer to restructure the delinquent borrowers' SBA disaster loans. We determined

"SOP 50 S12, Effedive December 1, 1997, page S-l.

                                                    15
           that in practice, borrowers had to contact the SBA and specifi ca lly request help in order
           to receive a "workout ."

           We further determined the NDlRC generally considered a workout as initiated
           w henever the borrower verbally agreed to resume payments. The NDl RC provided
           guidance to staff in a w ritten document entitled "Liquidation Collection Program" as a
           tool for ensuring that staff took all requi red actions prior to loan charge off.
           The Liquidation Collection Program did not conform to the SOP . Instead, it instructed
           the l oan Specialist t o contact the borrower and get a commitment to a "workout of
           three consecutive payments."

           Generally, once the borrower successfu lly made three loan payments, the NDlRC
           practice was to return the loan to regular servicing . When initiating these informal
           "workouts," the NDlRC staff did not analyze the borrower's cash flow or repayment
           ability, or evaluate w hether restructuring the repayment terms would help the
           borrower(s) pay the debt, as required by the SOP. The NDlRC st aff did not address the
           underlying cause of payment delinquency or ana lyze the loans t o determine w hether
           they cou ld reschedule the debt and reduce the borrower' s monthl y payment s.

           The NDLRC ultimately charged off the 14 loans from our audit sample whose borrowers
           made three payments and had their loans returned to regular servicing. These
           borrowers did not continue to make regular monthly payments; therefore, these
           informa l " workout" attempts were not effective in ensuring the borrowers continu ed to
           pay their SBA disaster loans.

           Loan Restructuring and Cash Flow Analysis
           The NDlRC did not determine w hether restructuring the loans would help the
           borrowers repay the debts or if the borrowers' cash fl ow could support the workout
           plan for these loans. This occurred due to a lack of management controls, oversight,
           and st aff training. Had the NDLRC evaluated each borrower's financial position and
           offered a customized loan workout , we believe the Agency may have been able to
           recover some debts rather than charge them off.

           Federal regulations state that if a borrower is unable to pay SBA loan installments in a
           timely manner for reasons substantiall y beyond the borrower's control, he may request
           that the SBA suspend the loan payments, extend the maturit y, or both ,lS For one
           busi ness loan in our audit sample eligible for a workout, the primary guarantor sent the
           SBA a letter requesting the opportunity to settle the debt for less than the full balance .
           However, we found no evidence the NDlRC responded to the letter. In addition, the
           NDlRC did not request the financial stat ements in order to assess repayment abi lity
           prior to charge off. The term for this charged off loan was 12 yea rs and 7 months.
           Since the company was still operational, the NDlRC could have extended the loan term
           to 30 years and may have recovered the principal balance of $470,301. Instead, the
           NDlRC charged off this loan.




15 13 CF R 123.16.


                                                   16
During the audit, we learned that neither NDLRC management nor staff received formal
training in credit management, debt collection, managing Federal receivables, Agency
policies and procedures, or making repayment arrangements. In addition, management
and staff were unfami li ar with the Treasury Managing Federal Receivables Guide (the
Guide), which addressed many of these topics. Further, the NDLRC did not have
controls to ensure that staff performed all required steps- i ncluding offering all
borrowers and guarantors a workout in accordance with the SOP -p rior to loan charge
off. For example, the NDLRC did not have a workout checklist or a procedure in place
requiring a supervisor to verify that the staff performed all of the actions required in the
SOP prior to loan charge off.

The NDLRC did not identify or track the number of workout arrangements made with
borrowers, or the dollars recovered from them. Without measuring the number of
workouts offered and performed over time, or the associated dollars recovered due to
workouts, the Agency did not have a viable method for assessing whether workouts
resulted in significant recovery of delinquent debt.

Agency Workout Groups

The Treasury Managing Federal Receivables Guide states that agency workout groups
are establi shed for the sole purpose of resolving troubled debts. The Guide further
states the agency may consider establi shing a workout group if the volume and
amount of its debts are large enough to warrant a special "problem account"
department. Although the NDLRC charged off principal balances totaling approximately
$762 .7 mi llion dollars in defaulted debt from June 2006 through June 2011, the NDLRC
did not have a group specifically assigned to perform workouts. Instead, all Loan
Specialists assigned to work delinquent and defaulted loans at the NDLRC were
responsible for initiating workouts for homeowners and businesses, regardless of their
knowledge or experience.

According to the Guide, workout groups should have the authority to decide on the
appropriate actions necessary to maximize debt recovery, including rescheduling debt.
Strategies developed by workout groups should be case specific; however, the workout
group should establish policies that outline options for handling various debt problems.
Furthermore, the Guide states that workout groups consist of loan officers, legal staff,
and accounting personnel. Team members should have working knowledge and
abilities in credit management and debt collection, business law, accounting, agency
policies and procedures, liquidation proceedings, coll ateral appraisal, and management
policies and procedures . They also should have communication and interpersonal skills.

Recommendation 4


We recommend that the Director, Office of Financial Program Operations, develop and
implement management controls and processes related to workouts, to ensure

            a. 	 An assessment is made to determine the feasibili ty of establishing a
                 workout group for the sole purpose of resolving troubled debts and, if
                 feasible, establish such a group.

                                        17
            b. 	 The NDlRC staff takes all required actions prior to charging off the loan,
                 including offering the borrower a workout, eva luating the loan for
                 potential restructuring, analyzing borrower repayment abi lity, and
                 providing workout terms to the borrower in w riting. Evidence that all of
                 these actions were taken should be included in the loan file.
            c. 	 The Liquidation Coflection Program and all related guidance conform to
                 the SOP governing NDlRC operations and the liquidation of disaster
                 loans.
            d. 	 All st aff receives formal training in credit management, debt
                 restructuring, debt collection, the Treasury Managing Federal
                 Receivables Guide, and Agency policies and procedures.
            e. 	 That a system is establ ished for tracking the performance of workouts
                 to measure the dollars recovered and determine whether workouts
                 result in significant recovery of delinquent debt.


$83 Million in Collateral Not liquidated by NOLRC Prior to Charge-Off
Based upon the sample of 65 loans reviewed, we estimate that the NDLRC charged off
loans with associated real estate coll ateral havi ng a value of at least $E5.5 mi lli on.
In addition, we estimate that the NDLRC also charged off loans with associated business
collateral having a value of at least $17.5 million w ithout liquidating this collateral prior
to charging off the loans. We were unable to obtain evidence that the NDLRC
liquidated any co llat eral, either real estate or business, since its inception in 2006 .
This occurred due to inadequate management control s and oversight.

We determined that 20 of the 65 charged off loans we reviewed had associated real
estate coll ateral with equity. The NDlRC, however, charged these loans off without
liquidati ng the real estate collateral. Fu rther,5 of the 20 loans with real estate collateral
also had non-rea l estate collateral. An additional eight loans had only non-real estate
collateral, yet the NDLRC did not liquidate any of these asset s. At th e time of charge off,
the esti mat ed value of the real est ate coll atera l for the 20 sam ple loans was
approximately $2 mi llion and the unpaid balances for these loans totaled approximately
$6.1 mi lli on. Based upon the results of our sample review, we estimate that the NDlRC
charged off at least 1,398 loans w ithout li quidati ng the associated real estate coll ateral.
We estimate the net collateral value of these assets was at least $65.5 mi lli on at the
time of charge off. The NDlRC could potentially have reco ve red at least $65.5 mill ion
for t he benefit of the taxpayers, since this value was net of anticipated foreclosure and
resa le expenses.

We also determined that the NDLRC aut omatica lly charged off all loans with
man ufactured home collat eral w ithout conside ring whether it could recover a portion of
the loan balance by liquidating the coll ateral. The NDlRC charged off the loans
regardless of whether the manufactured home was real estate or personal property.
In March 2006, the Chief of Portfolio Management approved a request from w hat was
then the Santa Ana Liquidation Center not to liquidate manufactured or mobi le homes
that were personal property. The NDlRC staff was unable to distinguish w hether the
man ufactured homes includ ed in the sample of loans we reviewed were personal
property or real estate. Therefore, it cha rged off the loans whether the collateral was

                                          18 

real or personal property. We determined that four of the seven manufactured homes
from our audit sample were real property with positive value that the NDLRC could have
potentially recovered through liquidation.

We determined that 13 of the 65 loans in our review sample had non-real estate
collateral, such as machinery and equipment, inventory, and accounts receivable, at the
time of charge off. Although the NDLRC made no effort to value or liquidate this
collateral, we were able to estimate the associated collateral value for 4 of the 13 loans.
At the time of charge off, the non-real-estate collateral for these four loans had a value
of approximately $873,702. The NDlRC may have recovered al" or a portion of this
value, had it attempted to liquidate the non-real estate collateral for these loans.
We were unable to estimate the value of the non-real estate collateral not liquidated for
the remaining nine charged off loans due to a lack of documentation in the loan files.
Therefore, it was not possible to determine the amount of additional funds that the
NDlRC may have recovered if it had valued and liquidated the associated non-real
estate collateral for these loans. However, we were able to project that the NDlRC
charged off at least 206 loans with non-real estate collateral having a value of at least
$17.5 million without liquidating this collateral prior to charge off. We based this
projection upon the loans from our audit sample for which the loan files indicated a
value for the non-real estate collateral prior to the NDlRC charging off the loan.
This dollar amount is understated because we could not determine the value of all of
the non-real estate collateral associated with the charged off loans we reviewed.

The Treasury Managing Federal Receivables Guide states that the agency should take
action to liquidate collateral when it becomes apparent that a debtor will not or cannot
repay. Consistent with the Guide, SOP 50 51 2 states that if voluntary resolution of the
delinquent account is not possible the staff should: (1) proceed with action against any
collateral; (2) identify assets against which a judgment might be enforced; and,
(3) establish a general estimate of recovery. However, the NDLRC did not provide its
staff formal training regarding liquidation requirements or the evaluation of non-real
estate collateral for potential recovery. Additionally, the NDlRC did not use the formula
specified in the SOP to evaluate the equity in the collateral.

On August 6,2008, NDlRC management requested approval from the Chief of Portfolio
Management to waive the requirement to prepare a liquidation plan for loans with non­
real estate collateral. The Chief of Portfolio Management approved th is waiver the
same day. Subsequently, the Santa Ana NDLRC discontinued the practice of evaluating
or liquidating business assets pledged as loan collateral. However, there is no evidence
that the NDlRC performed analysis to support the decision not to liquidate business
collateral, such as obtaining the average liquidation value of the business assets or
comparing the liquidation values to liquidation costs. Because the NDLRC did not
support its decision not to liquidate any business collateral, we question the validity of
the decision.




                                        19 

           Recommendation 5

           We recommend that the Director, Office of Financial Program Operations, develop and
           implement management controls and processes related to liquidation, to ensure the
           NDlRC:

                       a.    Evaluates all loan coll ateral (both real estate and other assets) for
                            li quidation potential withi n 180 days of the loan becoming deli nquent.
                       b.   Initiates liquidation action for all loan collateral (both real estat e and other
                            assets) w ithin 180 days of the loan becoming delinquent if liquidation will
                            result in recovery of a portion of t he debt (and the cost s of liquidation do
                            not signi ficantl y exceed the anticipat ed recovery amount).
                       c.   liquidates all collateral with a recoverable val ue prior to loan charge off.
                       d.   Creates and maintai ns historical records of the coll ateral liquidated and
                            dollars recovered resulting from the liquid ation of all collateral (both real
                            estate and other assets) .
                       e.   Discontinues the practice of charging off al l defau lted loans secured by
                            manufactured housing w ithout first evalu ating the collateral for potential
                            recovery.
                       f.   Monitors and tracks all loan collateral (both real estat e and non-real estate)
                            associated with each loan assigned t o the NDlRC
                       g.   Tracks the total real est ate and non-real estate collateral ava ilabl e for
                            li quidation from the loans assigned to the NDLRC
                       h.   Process of mon itori ng rea l estate and non -rea l estate collateral avai lable for
                            li quidation incl udes the capability to compare t he dollars recovered through
                            li quidation to the tota l collateral value.
                       i.   Provides clear explanation s for any variances between anticipated and
                            actual dollars recovered through liquidation.
                       j.   Staff responsible for liquidating collat eral recei ves collateral eva luation
                            training.



           Lien Priority in Non-Real Estate Collateral Lost for Loans with Balances
           Totaling At Least $40.3 Million
           From the statistical sam ple of 65 loans reviewed, we determined that the Uniform
                                                             16
           Commerci al Code (UCC) Financing Stat ement lapsed for 8 of 16 loans with non-real
           estate coll ateral. Four of these lapsed while the loans were assigned to the NDlRC.
           As a resu lt, we estimate the SBA lost its lien priority in its security interest in non -real
           estate coll ateral for at least 43 loans w ith balances totaling at least $40.3 mi lli on during
           the five-year period from June 2006 through June 2011. This occurred because the
           NDlRC did not have a process for tracking UCC financing statement expiration dates or
           renewing the statements . We determined that the four remaining financing st atements
           had lapsed while they were in regular servicing, prior to transfer to the NDlRC




' "Filing a document ca ll ed a UCC·l Financing Statement s&u res a lender's lien against a borrower for sp&ifi: coll atera l used as
payment to tre lender. The filing of a UCC·l to s&u re coll ateral is termed "perfecting" a li en.

                                                                    >0
          The SBA requires disaster loan borrowers to provide collateral for loans above certain
                      17
          thresholds. This collateral may be real estate, personal property, or both. The SBA
          establishes its rights to collateral-other than real estate-with a secu rity agreement,
          which creates a lien and identifies w hat the SBA may do in the event the borrower fails
          to repay the disaster loan. Under the security agreement the SBA may, for example,
          seize and sell co llateral after a default. The SBA does not need a court order to take
          collateral subject to a security agreement after a borrower's default.

          Most UCC financin g statements expire fi ve years from the date of filin g. Therefore, fi ve
          years from the file-stamped date, a lien might no longer be enforceable under the UCC.
          To extend the creditor's lien position beyond the expiration date, a creditor must file a
          UCC-3 Amendment w ithin six months of the original UCC financing statement's
          expiration date. To preserve its lien position in non-real estate collateral, the SBA must
          renew UCC financing statements or another creditor-without notice of SBA's lien ­
          could obtain a superior lien position. Should the SBA lose its superior lien position,
          there may be no equity remaining in the asset for the SBA to recover in the event the
          loan defaults.

           Although the Office of the Chief Information Officer provides the Servicing Centers a
           partial list of UCC financing statements that are due to lapse, the list does not identify all
           loan collateral. Cu rrently, the SBA does not have a database or other management
           information system that contains information regarding the collateral associated with
           each loan. Therefore, we were unable to estimate the value of the collateral for which
           the security interest was lost by the Servicing Centers.

           Recommendation 6


           We recommend that the Director, Office of Financial Program Operations ensure that
           the Disaster Loan Servicing Cente rs and the NDLRC develop and implement a process to
           ensure that

                     a.    All security agreement expiration dates associated w ith assigned disaster
                           loan s are identified and tracked, and the agreements are renewed prior to
                           their lapse or expiration dates.
                      b.   The Disaster Loan Servicing Centers provide the NDLRC the anticipated
                           security agreement expiration dates for loans transferred from the centers
                           to the NDLRC.


           $10.5 Million Loan Improperly Settled
                                                         18
          The NDLRC accepted a settlement of $100,000 to release the SBA's lien on the sole
          guarantor's residence and his unconditional loan guaranty for a business loan w ith a
          balance of $10.8 million. In addition to offering the SBA a settlement of $100,000, the
          guarantor also facilitated the sale of two real estate properties for which the SBA held


" 13 CFR 123.11 requires borrowers to pledge available collateral to the SBA to secure the loan if the loan amount exceeds $14,000 

for disaster heme loans or physical business loans and $5,000 for eco nomic injury loans. 

18 According to SOP 50-S2 -1, the terms "compromise~ or "settlement~ can be used interchangeability or to~ether to mean the 

resolution of a debt for less than the amount due through mutual agreement between the debtor and the SBA. 



                                                                Z1
senior liens. The SBA received approximately $244,000 from the sale of the two
properties. An unpaid loan balance of $10.5 million remained following the receipt of
these proceeds. According to the SOP, the NDLRC was not authorized to approve the
guarantor's settlement offer.

According to SOP 50 51 2, the Santa Ana Disaster Loan Servicing and Liquidation Office,
which is now the NDlRC, can approve compromises of principal amount forgiven of up
to $500,000. When claims exceed $500,000, the Headquarters Claims Review
Committee (HCRe) approval is required. Therefore, the NDlRC exceeded its authority
by approving the settlement. According to the SOP, the NDLRC should have referred the
settlement offer to the HCRe. The NDlRC did not have controls in place to ensure that
the loan was referred to the HCRC as required by the SOP.

We believe the complexity of the settlement offer in question, and the fact that the
unpaid disaster loan balance exceeded $10.5 million, indicated that the settlement offer
sho uld have been elevated to the Headquarters Claims Review Committee, as required
by the SOP.

Recommendation 7


We recommend that the Director of the Office of Financial Program Operations

   a. 	 Implement controls to ensure the NDLRC only approves offer-in-compromise
        settlements as authorized by the Standard Operating Procedures.



NDLRC Operations Were Not Designed to Achieve Effective Debt
Recovery
Management did not design NDLRC operations to maximize delinquent debt recovery.
While the NDlRC performed some debt collection actions, it had no strategy to
maximize overall recovery or recovery for individual loans. The NDlRC's mission was
not aligned with the Federal debt collection objectives specified in the DCIA.
Furthermore, the NDLRC did not have fundamental policies, procedures, and practices
that would enable the SBA to maximize debt recovery. During the aud it, we observed
that management oversight of the NDLRC was limited. Specifically, SBA management
did not:

• 	 measure the overall performance of the NDLRC;
• 	 maintain records or perform analysis indicating whether the NDlRC or its individual
    staff succeeded in recovering debts;
• 	 monitor or track staff debt recovery performance results for assigned loans;
• 	 ensure that loans intended for transfer to Treasury for cross servicing were
    transferred;
• 	 ensure that all lega lly enforceable, non-exempt debts delinquent over 180 days
    were transferred to Treasury cross servicing and offset as required by the DCIA;
• 	 monitor the volume or success of workouts the NDlRC performed, or ensure they
    were performed in accordance w ith w ritten guidance provided in its standard
    operating procedures;

                                       Z2
           • 	 ensure the NDlRC liquidated collateral;
           • 	 provide oversight to ensure the NDlRC or disaster loan servicing centers renewed
               financing statements to maintain the SBA's security interest in non-real estate
               collateral;
           • 	 provide controls to ensure the NDlRC approved offer-in-compromises settlements
               only wi thin the parameters specified in its written procedures; or,
           • 	 detect breaches of the internal controls.

           According to OMB Circular A-l23, programs must operate and resources must be used
           consist ent with agency missions, in compliance with laws and regulations, and with
           minimal potential for waste, fraud, and mismanagement. Effective organization,
           policies, and procedures, commonly referred to as int ernal control, are tools to help
           program and financial managers achieve results and safeguard the integrity of their
                      19
           programs. We believe that the weak control environment that pervaded all of
           NDlRC's operations adversely affected the agency's ability to maximize delinquent debt
           recovery.

           NDlRC's Mission Not Aligned with Federal Debt Collection Objectives

           The SBA did not design the NDlRC to achieve the Federal debt collection objectives
           specified by the DCIA. These objectives are to maximize recovery of del inquent debts,
           ensure quick action to enforce debt recovery, and use all appropriate collection tools.
           We were unable to identify any written guidance instructing the NDlRC to comply with
           these DCIA objectives. The April 2006 memorandum that established the NDlRC did not
           fully address the DCIA debt collection objectives. While it addressed two of the
           collection tools agencies may use to recover delinquent debts, it did not address nine
                                            20
           other available collection tools. Similarly, the SOP governing NDlRC operations did not
           specifically address the DCIA objectives.

           As previously described, the SBA did not use all appropriate collection tools to maximize
           recovery, such as transferring all delinquent debts to Treasury for cross servici ng and
           offset, liquidating all collateral with value, or rescheduling debts in accordance with the
           SOP.

           Staff Uncertain of NDlRC's Mission

           Interviews of the NDlRC staff indicated that some employees were uncertain of the
           purpose or mission of the NDlRC, or their role in accomplishing it. We interviewed
           various staff members and asked them to explain the mission of the NDlRC.
           We recei ved a variety of responses, some indicating that the mission was to " resolve
           loans." Additiona lly, the 2010 NDLRC Employee Desk Reference Guide stated that the
           objective of the NDlRC is to bring problem loans to resolution. However, the Desk
           Reference Guide did not define the meaning of " bring problem loan s to resolution."




190MB Circular A·1B 

w The Treasury Managing Federal Receivables Guide lists delinquent debt collection tools available to Federal agencies. 


                                                                 Z3
               Likewise, the Personal Business Commitment Plans for the NDLRC Director and staff did
               not contain performance objectives related to maximizing debt recovery, enforcing
               quick action to recover debts, or ensuring the use of all collection tools. Instead, these
               plans contained requirements that emphasized customer service.

               NDLRC Management Could Not Provide Basic Performance Information

               Based upon the results of our audit work, we concluded the NDlRC di d not meet the
               DCIA objective to maximize recovery. At the outset of the audit, NDLRC management
               was unable to provide data that identified or specified the dollars the NDLRC recovered
               through its collection efforts. Therefore, management did not have the necessary
               information to determine whether the NDLRC maximized recovery for the delinquent
               debts that the NDLRC serviced. However, during the course of the audit, management
                                                                                      21
               developed a methodology intended to identify the dollars recovered.

           As noted in our Management Advisory22 issued July 9, 2012, the SBA did not ensure
           quick action to enforce recovery for its current inventory of delinquent disaster loans.
           Specifically, approximately 39 percent of the loans in current inventory on
           December 31, 2011, totaling $171 million were in excess of 180 days del inquent, but the
           SBA had not transferred the debts to Treasury for cross servicing and collection.
           The Advisory also noted that the NDLRC had a backlog of 736 assets associated with
           loans totaling approximately $80.2 million in current inventory that it had identified for
           foreclosure. Although the NDLRC identified the loan collateral for liquidation between
           2006 and 2011, it had taken no further action.

               NDLRC Policies and Procedures Were Inadequate

               Standard Operating Procedures are a fundamental internal control used to
               communicate management directives regarding daily operations to all levels of an
               organization. Typically, management makes specific changes to the operating
               procedures in advance of implementation and incorporates them into the written
               procedures. This ensures they are easily accessible by all staff and that all functional
               groups w ithin the entity are aware of the procedures approved for use at any given
               time.

               Prior to November 1, 2011, the primary management control governing NDLRC
               operations and liquidation activities was SOP 50 SI 2. However, the SBA did not
               incorporate the requirements of the Debt Collection Improvement Act of 1996 into the
               SOP. The SOP did not provide guidance for ensuring quick action to enforce debt
               recovery or require the use of all appropriate collections tools. In particular, the SOP did
               not provide controls for ensuring that the Agency transferred all non-exempt debts over
               180 days delinquent to Treasury for cross servicing and offset, as required by the DCIA.


U OFPO provided the OIG with re<overy data for the NDlRC following the audit. However, we did not verify the accuracy of t he
inform ati on.

"Liquidation
  DIG Report 12· 14, The Small Business Admin istration Did Nat Maximize Recovery for S171 Million in Delinquent Disaster Loons in




                                                                24
Originally, SOP 50 51 2 applied to all SBA loans, including disaster loans. However,
on November 15, 2010, the SBA issued a revised SOP 50 51 3 providing updated
guidelines for liquidation of SBA loans, w ith the exception of disaster loans.
On November 19, 2010, the SBA Administrator issued Policy Memorandum 5000-1186
that directed the Agency to adhere to the policy and procedures contained in
SOP 50 51 2 for disaster loan liquidation until a new SOP was issued. This policy
memorandum expired November 1, 2011, and to date, the SBA has not issued a revised
SOP governing disaster loan liquidation or NDLRC operations.

Furthermore, during our audit, the NDLRC modified several procedures without
inco rporating them into the SOP. The NDLRC management informally comm unicated
the revised procedures to staff via email. For example, the NDLRC modified the
procedure it used to determine the recoverable value of real estate assets. The new
formula differed from the approved formula specified in the SOP. Howeve r, the NDLRC
implemented the new formula without incorporating it into the SOP and without formal
approval. We believe this practice undermines the relevance of the SOP and
compromises the internal control environment.

Recommendation 8


We recommend that the Director, Office of Financial Program Operations

        a.   Re-evaluate the structure and design of the NDLRC to ensure that its
             operations are designed to maximize recovery of delinquent debts.
        b.   Develop and publish a clear mission statement tor the NDLRC that clearly
             aligns with Federal debt collection objectives.
        c.   Update the SOP, governing delinquent disaster loan collection and asset
             liquidation to incorporate the Federal debt collection objectives and
             requirements specified by the DCIA.
        d.   Establish a performance management process that emphasizes effective
             debt recovery.
        e.   Ensure that routine procedural changes, such as modifying the formula for
             evaluating collateral, are incorporated into the SOP.


Management Actions Taken and in Progress
As a result of the audit, the Office of Financial Program Operations developed an ad hoc
management report quantifying the dollars the Agency recovered for delinquent
disaster loans assigned to the NDLRC.

In October 2011, the NDlRC created a foreclosure team to manage the foreclosure and
liquidation of real estate assets associated with defaulted loans. As of January 2012, the
NDLRC had nearly 700 loans in foreclosure inventory it had identified for foreclosure
between 2006 and 2011. In February 2012, the NDlRC began to initiate foreclosures
and implemented a process to monitor and track them. As of November 2012, the
NDLRC staff informed us that they had initiated foreclosure for approximately 75 real
estate collateral assets and had successfully foreclosed on seven of them. Some loans
were removed from the foreclosure list due to payment in full of the loa n balance,

                                       >5 

determination that the collateral no longer had recoverable value, or a borrower
workout.

According to the Cent er Director, the NDlRC foreclosure efforts resulted in a number of
borrowers making an initi al "good faith" payment and committing to resume making
regular payments t o avoi d foreclosure. The NDlRC director stated tha t the assigned
l oa n Speciali st wou ld monitor the loans for six months to ensu re that the borrowers
continue t o make regular payments. However, thi s foreclosure process pertains only to
loans in current inventory, not previously cha rged off loans wi th collateral.

Further, SBA management also stat ed that it is working with Treasury to develop a new
process for the transfer of collaterali zed debt to Treasury, has developed a cha rge-off
checklist, and has already offered some traini ng to staff.


Conclusion
The NDLRC did not effectively manage delinquent disaster loans to maximize debt
recovery and minimize losses. During the five-year period from Jun e 2006 through June
2011, the NDlRC charged off approximately $752 .6 mill ion without using all appropriate
collection tools . Specifi ca lly, the NDlRC did not refer all borrowers and guarant ors to
Treasury for cross servicing and offset, did not liquidate rea l est ate or business
collat eral, and did not ana lyze all delinquent disaster loans for the potential to
restructu re them in accordance w ith the SOP.

The NDLRC's lack of focus on maxim izi ng delinquent debt recovery indicat es that SBA's
approach to oversight and management of the NDLRC needs t o be strengthened.
The NDLRC did not have a stated mission, effective policies and procedures, trained
staff, or basic performance data to indicate w hat amount, if any, of the delinquent and
defaulted disaster debt it had recovered. Significant improvements are needed in order
to ensu re the NDLRC maximizes debt recovery and minimizes losses.

Agency Comments and Office of Inspector General Response

On May 7, 2013, we provided a draft copy of thi s report to SBA management for
comment. On June 17, 2013, SBA management provided a formal response, w hich is
included in its entirety in Appendix IV. A summa ry of management's comments and our
response follows .

The SBA agreed with four of the seven recommendations in this report and stat ed that it
has taken steps to address many of the recommendations. Specifi cally, SBA
management stated that it: (1) is working with Treasury to develop a new process for
the transfer of collaterali zed debt to Treasury; (2) w ill evaluat e existing management
control s to ensure lega lly enforcea ble debts are transferred to Treasury appropriately;
(3) offered training rel ated to performing wo rkouts; (4) will provide additional traini ng
for ap plicable staff; (5) developed and implemented a charge-off checklist; (6) wi ll
develop a plan to ensu re securit y agreement expi rati on dates are identified and tracked,
and security agreement s are renewed pri or to their lapse dates; and (7) wi ll update its



                                        >6 

Standard Operating Procedures for Disaster Loan Servicing and Liquidation by
September 30, 2013.

The Agency partially agreed with t wo recommendations. Whi le the Agency agreed to
transfer loans now designated with loan status comment code "66" that blocked the
transfer of these debts to Treasury for collection, it disagreed to transfer these debts
immediately. The Agency intends to re-evaluate these charged off loans with collateral.
It intends to determine whether the collateral has increased in value and could be
liquidated or if the borrower can resume payments, enter into a workout, or settle the
debt before transferring the debts to Treasury for collection. Similarly, the Agency also
agreed to develop and implement a process for liquidation, but stated that it would first
conduct a cost-benefit analysis to evaluate whether specific recommended controls
were cost effective.

The SBA's management did not concur with recommendation number seven. Thi s
recommendation advised the Director of OFPO to ensure the NDLRC only approves
settlements as authorized by the Standard Operating Procedures. The SBA stated that
the Small Business Act grants the SBA Administrator the authority to settle SBA claims
w ithout limitation. Therefore, Department of Justice approval is not needed for the SBA
to accept an offer in compromise on loans with balances exceeding $1 million (unless
the loan is already in li tigation).

Management's comments indicated that recommendation number three was a
duplication of recommendation number two. Recommendation number three included
in our draft report pertained to the need for the SBA to ensure that it refers all legally
enforceable debts to Treasury for offset, while recommendation number two applied to
the transfer of debts to Treasury for cross servicing. To address management's
concerns, we have consolidated recommendations two and three in the final report.

General Agency comments and the OIG responses are summarized in Table 2 below.

T~b l c   2 AgclII:Y Cummcnts antl OIG Resptlnse

Agency Comments                                            DIG Response

The title of the audit report is misleading because it     We have revised the title of the final report to
leads the reader to believe that the SBA had a             address the agency's concerns that the title was
reasonable chance to recover $752.6 million from           misleading.
defaulted disaster loans. This amount is actually the
remaining unpaid loan balance on non-performing
disaster loans. The statement assumes that a 100
percent recovery on distressed loans, secured
mainly by junior liens, is a legitimate possibility. QIG
cannot support this assumption and does nol offer a
reasonable alternative, rather it leaps to the
conclusion, without statistical evidence that transfer
to Treasury for cross·servicing would result in
complete recovery of the defaulted loan balances.




                                                  27
Agency CommentsThe OIG continues to assert that          OIG ResponseWe made minor revisions to our
the Agency is not in compliance with the DCIA            report to place more emphasis on our finding that
referral requirements for defaulted loans with           the NOLRC did not effectively manage delinquent
collateral. The SBA's policy was consistent with the     disaster loans to maximize rec:)very and minimize
Agency-specific exemptions letter the SBA received       losses and slightly less emphasis on the agency's
from Treasury. The OIG's (lssertion of non­              I(lek of eompli(lnee with the DeIA. Speeifie(llly, t he
compliance is unfounded.                                 assertion regarding the SBA's noncompliance with
                                                         the DCIA was removed from the Executive Summary
Moreover, all eligible delinquent loans, including       of the report. Further, in the body of the report,
collateralized debt, were referred to the TOP.           rather than stating that SBA's policy udid not comply
                                                         with the DCIAu, we revised the wording to state
                                                         Uthe policy did not fully comply with the DCIA
                                                         requirements." While Treasury, in its letter dated
                                                         March 1, 2013, stated it understood how the SBA
                                                         could have int erpreted its January 2000 letter t o
                                                         imply that debts with collateral were exempt from
                                                         the transfer requirement, the letter further stated
                                                         that Treasury and the SBA agreed that the SBA
                                                         would begin transferring collateralized debts to
                                                         Treasury for collection. According to the letter,
                                                         Treasury does want the SBA to transfer all eligible,
                                                         delinquent debts, including debts with collateral, in
                                                         effect bringing the SBA into full compliance with the
                                                         DCIA.



                                                         At the time of our audit work, Treasury's records of
                                                         TOP referrals, obtained from Treasury OMS staff,
                                                         did not include a record of all eligible delinquent
                                                         d~utur~ fur 29 uf S3Iu,lJ1~ frum uur ~Iatbtically valid

                                                         audit sample, indicating that the SBA did not ref er
                                                         all eligible debtors to TOP. We verified that TOP
                                                         had received only eligible debts. As stated on page
                                                         15 of the report, we did not verify the transfer f or
                                                         12 of the loans because the borrowers were not
                                                         eligible for transfer to TOP. We did not include
                                                         deceased borrowers and borrowers in litigation
                                                         status, including bankruptcy, because these
                                                         borrowers are ineligible for tr;nsfer to TOP.
OIG disclosed that no additional analysis took place     OFPO misunderstood the DIG's statement. We had
to determine whether or not these debtors had            already determined whether or not the transfer
standard exemptions from mandatory transfer to           should have occurred; i.e. whether or not there was
Treasury. SBA and all federal agencies are               a standard exemption. However, as stated in the
statutorily barred from referring borrowers in           report, we determined that thE' SBA was required to
exempted classes. The most common exempted               transfer debtors for 53 of the 65 loans in our audit
clgses include borrowers that have filed                 sample to TOP. The SBA did not refer one or more
bankruptcy, are facing foreclosure or other litigation   debtors for 29 of the 53 loans.
proceedings, and borrowers that have settled their
debts. This is another example where, without due
diligence, a blanket statement is misleading.
The SBA plans to evaluate charged off loans to           We estimate there are over 5,000 charged-off loans
determine if the equity position has improved to the     with real estat e collateral that the NDLRC staff
point where the property can be foreclosed upon          would be required to re -evaluate under the SBA's
before transfer to Treasury cross-servlclng. This        proposed plan. Some of these loans have multiple
plan was discussed at a meeting with the SBA, the        pieces of associated collateral. Currently, the N DlRC
OIG, and Treasury in February 2013. The OIG's            has a staff of five people assigned to evaluate real
recommendation to immediately transfer all               estate collateral for equity and potential
charged off debts not previously transferred to          foreclosure. In addition, there is a large number of



                                                 '8 

Treasury is inconsistent with the SBA's plan.                 loans still assigned to the NDlRC, not charged off.
                                                              that the NDLRC has flagged for potential
                                                              foreclosure. Therefore, we question the feasibility
                                                              of a staff of five reviewing the loan collateral on
                                                              5,000 charged off loans in a reasonable amount of
                                                              time (lnd will request (I 5pe(ific pl(lll of (I(tion by
                                                              SBA to ensure effective resolu,ion during our audit
                                                              follow up process.
On page 7. the OIG lists the many t ools that                 Page 7 of t he report provides background
Treasury utili zes in the cross-servicing program. DIG        information regarding the tools Treasury uses
neglected to mention that the SBA also utilizes               during cross servicing. In response to
multiple collection t ools. including demand letters,         management's comments, however, we have also
SBA-initiated telephon e calls with borrowers and the         identified in the background section the various
negotiation of repayment arrangements, credit                 collection tools used by the SBA.
bureau reporting, administrative wage garnishment,
referral to the Department of Justice for litigation,
and reporting of unpaid debts to the Internal
Revenue Service.
On page 11, the OIG indicated that t he NDLRC                 We identified 18 loans from the sta ti sti cal sample of
abandons collatera l at th e time of charge-off. This is      6S charged-off loans for which th e NDLRC
an incorrect statement. Only cu rrent efforts to              concluded that the collateral had no value. In all 18
recover on real estate collateral are abandoned due           cases, the 327 form that justified the charge-off
to insufficient equity. but th e lien on the colla teral is   action stated "abandon colla t eral and charge-off
not released. It is SBA's full intention to review            loan" as the "cause" for the action. Ten of the 18
these loans after time to identify potential equity or        loans were coded "66" to prevent the transfer of
lien positions improvements.                                  the debts to Treasury cross servicing and collection.
On page 12, the OIG makes an erroneous                        Page 12 of the report does not refer to foreclosu re.
as>umption that with re spect to enforced debt                The statute of limitations we referred to was in
collection, either through foreclosure or suits               regard to initiating collection H tions, including
against obligors or guarantors, the Agency must sue           bringing suit for a deficiency Judgment whenever
within 6 years of default. There is currently much            the creditor agency is unable to recover the full loan
case precedent, including most of the United States           balance via foreclosure and liquidation of the
Courts of Appeal that holds there is no statute of            collateral. However, based ujXln management's
limitations for fo reclosure actions brought by the           comment, we have added a footnote to page 12 of
Federal government.                                           the report to clarify that there is no statute of
                                                              limitations on foreclosure actions.




                                                     '9 

Agency CommentsOn page 26, the OIG identifies a           OIG ResponseStandard Operacing Procedures are a
Policy Notice that indicated UUntii the issuance of       fundamental internal control intended to
this SOP (SOP 50 52 2), the disaster loan liquidation     communicate management's directives and provide
policy and procedures contained in SOP 50 512 will        guidance to staff. The SOP governing the NDlRC
remain in full force and effect.u While that policy       was last updated in December 1997. While the OIG
notke has expired, the Office of Cilpitill Access hils    hils been updilted on the stiltus of the SOP, we
reported annually on the status of SOP 50 52 2            continue to maintain our position that a new SOP is
issuance, which is currently expected for completion      imperative to thi s process.
in September 2013.
On page 18, the OIG describes their sample of 18          The scope of the audit included loans the NDlRC
loans, of which 14 were transferred to servicing          charged off between June 2006 and June 2011. Our
after making 3 on time payments, but were                 audit findings were consistent with an analysis
subsequently charged off. However, as of April 30,        performed by th e NDlRC in February 2011. The
2013, OFPO conducted a review of the entire               NDlRC conducted an audit of 100 loans. According
population of loans returned to servicing by the          to the NDlRC Director, th e result s indicated that 50
NDLRC between Ju ly 1, 2011 and June 30, 2012. The        percent of the loans currently assigned to the
review found that 1,737 of 2,201 loans, or 79%,           NDlRC were previously assigned and then returned
remained in servicing or were paid in fu ll, as           to regular servicing. These loans were at the NDLRC
indicated in the following chart. Of t hese loans, only   for the second time. We recognize th at the NDLRC
6% were charged off.                                      may have made changes to their processes
                                                          subsequen t t o completion of our audit fieldwork.




Recommendation 1

Management Comments

OFPO partiall y concurs w ith this recommendation . Treas ury and OFPO are currently
developing a new process for the transfer of collateralized debt. The new process will
allow Treasury to aggressively coll ect these debts w ithout com promising future equity
positions on real estate coll ateral. However, OFPO stated that the immed iate transfer
of charged off loans coded 1/66" is neither prudent nor reasonable as the economy has
improved and loans need to be reviewed to determine ifthe eq uity situation has
improved and either the borrowe r can resume payments, enter a workout or
comp romise, or the property ca n be foreclosed upon before transfer t o Treasury cross
servici ng. As indicated in the narrative above, thi s was discussed as the plan at the
February 2013 meeting . OFPO w ill develop a plan to transfer the charged off debt
coded 1/66" in a prudent manner and continue t o update the OIG on the progress of thi s
process development.

DIG Response

Management's comments were partially responsive to the recommendation.
We commend the SBA on working w ith Treasu ry t o facilitate the transfe r of charged off
loans w ith collateral to Treasury cross servicing. However, the NDlRC cu rrently has a
staff of five people assigned to evaluate real estate collateral for equity and potential
foreclosure. In addition, there is a large number of loans sti ll assigned to the NDlRC, not
charged off, that the NDlRC has fl agged for potential foreclosure. Therefore, we
question the feasibi li ty of a staff of fi ve reviewing the loan coll ateral on 5,000 charged




                                                 30
off loans in a reasonable amount of ti me. We w ill request a specifi c plan of action by
the SBA to ensure effecti ve resolution during ou r audit follow up process.



Recommendation 2

Management Comments

OFPO concu rs with thi s recommendation. After completion of the process development
references in recommendation 1, OFPO will evaluate existi ng ma nagement controls to
ensure legall y enforceable debts are transferred to Treasury appropriately and develop
controls as necessary.

DIG Response

Management' s comments are responsive to t he recommendation; however,
management has not provided a t arget date for implementation. A target date for
implementation is necessary and w ill be obtained during our audit follow up process.



Recommendation 3

Management Comments

Thi s audit recommendati on is a dupli cation of recommendation #2.

DIG Response

In response to management's comments, we have consolidat ed recommendations two
and three from the draft report. These recommendations now appear as
recommendation number t wo in this final report.



Recommendation 4

Management Comments

OFPO concu rs with thi s recommendati on. Staff has been offered train ing on multiple
occasions, including trai ning from the Department of Treasury on Debt Coll ecti on in FY
2012 . OFPO will continue to coordinat e additional training for appli cable staff
members. Additiona ll y, a charge-off checklist has been developed sin ce the audit and is
in use by Santa Ana NDLRC staff to ensure all necessary actions take place prior to
charge-off. Ofthose objectives not addressed, OF PO will develop an implementation
plan by August 30, 2013.

DIG Response

Management' s comments were responsive to the recommendati on.

                                        31
Recommendation 5

Management Comments

OFPO partially concurs w ith this recommendation . OF PO will conduct a review of each
objective and conduct a cost benefit analysis, if applicable, to determine inclusion in the
implementation plan. An implementation plan will be developed by August 3D, 2013.

OIG Response

Management's comments are partially responsive to the recommendation.
According to the memorandum that created the NDlRC, it is responsible for managing
the liquidation of all loan collateral with va lue. All of the steps included in the
recommendation are essential for effectively managing and liquidating loan collateral.
We continue to maintain our position that each recommended control should be fully
implemented and do not believe conducting a cost benefit analysis is necessa ry. Thi s
recommendation w ill be resol ved during the audit follow -u p process.



Recommendation 6

Management Comments

OFPO concurs with this recommendation and will develop an implementation plan by
August 30, 2013.

OIG Response

Management's comments were responsive to the recommendation.



Recommendation 7

Management Comments

OFPO disagrees with this recommendation as the assertion in the draft audit report
indicates that all offers in compromise for loans exceeding $1,000,000 must be handled
by the Department of Justice. Under the Small Business Act 15 U.s.C, 634(b) the SBA
Administrator is given independent compromise (Le. settlement) authority to settle SBA
claims w ithout limitation. Therefore, OOJ approval is not needed except w hen the case
is in litigation as they have authority in those situations.

OIG Response

The OIG agrees that the Small Business Act gives the SBA the authority to settle SBA
claims without limitation. However, according to SOP 50 512, effective

                                        32
December 1, 1997, when a claim exceeds $500,000, the NDLRC must refer the
settlement offer to the Headquarters Claims Review Committee (HCRe). Therefore, the
NDlRC exceeded its authority by approving the settlement. The NDlRC did not have
controls in place to ensure that the loan was referred to the HCRC as required by the
SOP.

We have revised our finding to note the requirement for the NDlRC to refer claims over
$500,000 to the HCRC, not to DOJ.



Recommendation 8

Management Comments

OFPO concurs with this recommendation. In February 2011, SBA initiated a disaster
loan servicing process improvement effort, which explored several efforts for
improvement. Among those improvements were those identified by the OIG.
Additionally, SBA is updating its policies, including the Standard Operating Procedures
for Disaster loan Servicing and liquidation, which we anticipate will be cleared and in
use by the end of fiscal year 2013. OF PO will review these recommended objectives and
prepare an implementation plan by August 30, 2013.



OIG Response

Management's comments are responsive to the recommendation and implementation
w ill be monitored during the audit follow-up process.




                                      33
Appendix I: Scope and Methodology

Our audit objectives were to determine whether the Sma ll Business Admi ni stration (SBA)
National Disaster loan Resolution Center (NDlRC): (1) effectively managed delinquent disaster
loans to maximize recovery and minimize losses, (2) complied with applicable laws and
regu lations, and (3) had a mission aligned w ith Federal debt collection objectives.

Evaluation of Effectiveness of Management of Delinquent Disaster Loans

To determine whether the NDLRC effectively managed delinquent disaster loans to maximize
recovery and minimize losses, we conducted site visits at the NDLRC in May and July 2011,
conducted multiple interviews of NDLRC management and staff, and reviewed various records.
We also requested copies of managerial exception reports used at the NDLRC; however, the
staff indicated that there were none.

Additionally, we obtained a spreadsheet from the Office of the Chief Information Officer (OClO)
containing all loans the NDlRC charged off from June 2006 through June 2011. We used the
spreadsheet from OCIO to obtain a statistica lly valid random sample of 65 loans, stratifi ed by
principal balance. The interest associated with the universe of charged off loans was not
identified in the spreadsheet provided by OICIO that we used to select a random sample of loans
for review. However, during our review of the sample items, we identi fied the associated
interest and it was included in the projected amounts. We then reviewed actual loan files and
the related l oan Accounting System information to determine whether the NOLRC maximized
recovery prior t o charge off.

We also reviewed the 65 sampled loans to determine:

     (1) 	 the loan detail, including whether the loan was a business or home loan;
     (2) 	 the principal and interest amount charged off;
     (3) 	 the history of events that occurred f or the loan, for example, bankruptcy, foreclosure by
           the first lien holder, probate, non-payment of property taxes, et c.;
     (4) 	 w hether the borrowers and guarantors associated with each loan were provided with a
           workout in accordance with SOP 50 51 2;
     (5) 	 w hether the NDLRC approved an offer-in compromise settlement for t he loan in 

           accordance with SOP 50 51 2; 

     (6) 	 w hether there was collateral associated with the loan;
     (7) 	 if there was non-real estate collateral (business assets), whether the NOLRC and the
           servicing center had renewed the UCC fi nancing st atements to preserve SBA's priority
           interest in the co llat era l; and,
     (8) 	 w hether the NOLRC liquidated coll ateral with value associated with the loan .

This report identifies our statistical projections of the total dollars for w hich the NDlRC did not
maximize recovery due to variou s NDLRC errors. Based upon the errors we observed by
reviewing a statistically valid, random sample of 65 loa ns the NDLRC charged off between June
2006 and June 2011, we projected the total number of loans and the corresponding total loan
balances, including principal and interest that th e NDlRC processed w ith errors. These errors
included: (1) not referring all debtors associated with the loan to Treasury for cross servicing
and offset, (2) not analyzing all of the loans for workout potential in accordance with the SOP, 23
(3) not liquidating loan co llateral with value prior to loan charge off, (4) not renewing UCC

11 sOP 50 S1 2, effective D ecem ~ r 1, 1997.

                                                 34
Appendix I: Scope and MethodologV


f ina ncing stat ement s to preserve t he SBA's lien priority in non-real est at e collatera l, and (5) not
referri ng loans w ith balances over $500,000 to the HeRe for approva l of comprom ise offers as
requi red by SOP SO 5 1 2.

From our review of t he sample of 65 loans, we observed that the NDl RC staff rou tinely
designated all loa ns with real estat e co llat eral with a specific loan status comment code ("66")
int ended to prevent the loans from transfer to Treasury cross servicing following charge off.
Therefore, we ana lyzed the spreadsheet with all loans the NDlRC had charged off between
June 2006 and June 2011 to identify loans the NDlRC coded to prevent t ransfer to Treasury
cross servicing because the loans had associat ed real estat e collateral. We then tot aled the
number and associated dollar va lue of these loans.

This report identifies t he actual tot al num ber of loans and associat ed actual tota l princi pal
balances the NDLRC coded w ith a specific loa n st atus comment code ("66" ) intended to block
the transfer of the loans t o Treasu ry cross servicing .

We excluded loans with loan-st atus-comment code "66" from our st atistica l projections related
to Treasury cross servicing transfer errors the NDLRC made for the 65 loans in our aud it sample.
This allowed us to report the actual number of loans and associated doll ar val ue that the NDLRC
coded as having real estate collateral to block their tra nsfer to Treasury, separately f rom other
Treasury cross servicing errors the NDLRC made.

Duri ng our review of the sample of loans, if the loan had associated real estate collat eral, we
com puted the recoverable equity value using t he formu la specified in SOP 50 51 2. We t hen
compared our coll ateral analysis results w ith the one performed by the NDLRC, if any.
We also made a determination regarding whether the loan had associat ed collatera l that the
NDLRC should have liquidat ed. We reviewed the inf ormation contai ned in the Centralized Loan
Chron System (CLCS) comments for pert inent det ails.

We det ermined w het her each loa n in our aud it samp le had associat ed non-real est ate collateral.
We reviewed the loan file informati on t o determine t he va lue of associated non-real estat e
collateral, if t he loan file noted any value. We also determ ined whether the financi ng statement
used to secure the non-rea l est ate collatera l was still in effect, or had lapsed. If the f inancing
stat ement had lapsed, we determined whether it lapsed w hil e the loan was assigned t o the
NDLRC or to t he disaster loan-servicing cent er.

Evaluation of NDLRC Compliance with Laws and Regulations

Using t he stat isti ca lly valid random sample of 65 loans, we reviewed actual loan fil es to
det ermine w hether t he NDLRC's recove ry efforts were consistent with Federal laws, regulations
and oth er guidelines, such as the Treasury Managing Federal Receiva bles Guide. We also
veri fied whether t he actions performed for each loan in t he audit sample were conducted in
accordance w ith internal guidance specif ied in SOP 50 51 2.

In additi on, we obtain ed access t o t he Treasury database syst em containing all loa ns transferred
t o Treasury t o det ermine w hether each borrower and guarantor fo r the 65 loans in our audit
sam pl e were transferred to Treasury for cross servicing and collection. We contact ed the


                                                     35
Appendix I: Scope and MethodologV


Treasury SBA liaison to determine whether the loans in the audit sample were referred to
Treasury for offseL


Evaluation of NDLRC Mission Alignment with Federal Debt Collection Objectives

To evaluate whether or not the NDLRC mission was aligned with Federal debt collection
objectives, we interviewed managerial staff responsible for oversight of the NDLRC. We also
interviewed managerial and other staff assigned to the NDlRC to ascertain their perspective on
the mission of the NDLRC. We also obtained and reviewed the internal memorandum used to
establish the NDlRC. We reviewed the tasks outlined in the memorandum to determine if they
conformed to Federal laws and regulations.

We requested the NDlRC performance goals and individual performance objectives for the staff
to determine whether they contained goals for overall dollar recoveries, number or dollar value
of loans to place in workout status or to liquidate. The NDLRC itself had no performance
objectives; therefore, no analysis could be performed. However, we did analyze the staff
Personal Business Commitment Plans to determine whether they contained performance
objectives related to debt recovery.

Additionally, we obtained and reviewed the NDLRC's formal training records for the most recent
fiscal year to determine whether the staff received training in Federal credit management or
debt collection, agency regulations, or Standard Operating Procedure 50 51 2, t he agency's
written procedures that pertain to loan liquidation .

Finally, we requested the dollars recovered by the NDLRC; however, there were no reports
available containing NDLRC recoveries. The only available report tallied dollars recovered by
Treasury via offset together with dollars recovered by the NDLRC. Subsequently, management
developed a report to use on an ad hoc basis that compiled the dollars attributed to the NDLRC.
We did not verify the accuracy of the data contained in this report because it was supplied to
OIG at the end of the audit, after the exit briefing had already taken place.

Use of Computer-Processed Data

The SBA Office of the Chief Information Officer (OCIO) provided us with a spreadsheet
containing a list of all disaster loans charged off by the Santa Ana NDlRC, the Birmingham
Disaster Loan Servicing Center, and the EI Paso Disaster Loan Servicing Center from June 2006 to
June 2011. The data contained in this spreadsheet was extracted from the loan Accounting
System.

The NDlRC provided several spreadsheets containing monthly records of the NDlRC current
inventory of assigned loans, referred to as the "Manager's Report." The information contained
in the Manager's Report was extracted from SBA's loan accounting system. The loan accounting
system is audited annually by an external accounting firm and no material issues related to the
loan accounting system data were identified. Therefore, we considered the data to be reliable
for the purposes of our review.


                                               36
Appendix I: Scope and MethodologV

We analyzed the Manager's Report containing the NDLRC current inventory as of
December 31, 2011 to identify assigned loans in excess of 180 days delinquent that should have
been transferred to Treasury for cross servicing in accordance with the Debt Collection
Improvement Act. We also ana lyzed the report to determine how many of the loans were
designated for foreclosure and administrative wage garnishment. Additionally, we ana lyzed it to
obtain the age of the loans containing the foreclosure designation.

Prior Coverage

Four prior OIG Audit Di vis ion reports identified findings related to the SBA's delinquent disaster
debt collection.

    •	   Audit Report Number 12-05, SBA's FY 2011 Financial Statement Audit, issued 

         December 15, 2011. 

    •	   Audit Report Number 11-05, Audit of SBA's FY 2010 Financia/Statements Management
         Letter, issued December 15, 2010.
    •	   Audit Report Number 7-26 , Audit of Liquidation of Disaster Loans, issued June I, 2007.
     • 	 Evaluation Report Number 5-3-H-004-006, SBA Loan Servicing and Debt Collection
         Activities, issued March 31, 1995.




                                                 37
           Appendix II: Sampling Methodology

           In order to determine whether the NDlRC maximized recovery for loans assigned between
           June 2006 and June 2011, we first obtained the universe of di saste r loans charged off betwee n
           June 2006 and June ZOl1 from SBA's Office of the Chief Information Officer. We then identified
           the loan s assigned to the NDI RC office code at the time of charge off. Next, we consu lted a
           professional statistician in order to obtain a stati stically valid sample of loans charged off by the
           NDLRC during the five ~year period beginning June 2006 and ending June 2011.

           The stati sticia n consultant extracted a sta ti stically valid, random sample of 65 loans, stratified by
           the principal loan balance, drawn fro m the uni verse of 9,035 loans the NDLRC charged off
           between June 2006 and Ju ne 2011. After analyzing the documentation for the loans in our
           sample as described in Appendix I, Scope and Methodology, we provided the statistician
           consultant with the res ults of our loa n sam ple review. The loan documentation for the sample
           of 6S loam we reviewed contained the associated interest for each of the loans. W e provided
           the interest amounts to the statistician for projection purposes for the 61 loans for w hich we
           identified processing errors. The statistician then provided the lower and upper error li mit,
           including principal and interest, at a 9S percent confidence level for attributes we selected .

           The statisticia n consultant also provided point estimates for the errors we ide ntified .
           However, we did not use the point estimates to project the number or dollar va lue of errors the
           NDLRC made for the loans we reviewed. Because the lower limit provides the most
           conservative estimate for error rate occurrence and associated dollars, we chose to use it for
           the error projections presented in this audit report.

           The tdbte below summ arizes the audit projections provided by the statistician co nsultant for the
           sample of 6S loans we re viewed.

           Table 3 Treasury Tramfer and Referral Error Projcl:tions for Sample Loam Rc, icnctl

                                                                                                       24
                                               Error Projections for 6S Sample Loans Reviewed
                                                                                                            Lower       Upper
                                                                                                 Point      Bound       Bound
          Exception Type                                                                        Estimate    (95%CI)     (95%CI)

           Summary •
                               Loans wi th Exceptions (Number)                                     8,191        7,198       9,184
          Exceptions for
           All Loans in        Loans with Exceptions (Dol/oris)                                 $845,093    $752,597    $937,589
          Review Sample
                               Loans Not Processed Timely (Number)                                 6,740        5,427       8,053
             Treasury
                               Loans Not Transferred to Treasury Cross Servicing (Number)          2,908        1,454       4,361
             Referral
          Exceptions - No                                                                  6
            Real Estate        Loans Not Tran sferred to Tre asury Cross Servicing (00Ilar/ )   $263,058    $149,047    $377,069
          Designation in
               Loan            Loans Not Referred to Treasury Offset (Number)                      3,785        2,257       5,314
            Accountin g
              System           Loans Not Referred to Treasury Offset (Ool/ars27)                $392,266    $264,353    $520,178



l-IDollars values are in m lIions. 

2j The dollar value of the estimate includes principal and interest. 

16 The dollar value of the estimate includes principal and interest. 

" The dollar value of the estimate includes principal and interest. 



                                                                         38
Appendix II: Sampling MethodologV
                                                                                       a
Table- -I Other Error Projc-clions for 65 S~lmrlc wans              Rl' \ ' j{"\\cte



                                                                                                      Lower              Upper
                                                                                            Point     Bound              Bound
 Exception Type                                                                            Estimate   (9::;')6Cl)        (95%CI)


     Workout            Loans with Non-SOP Compliant Workout (Number)                         4,514          3,028           5,999
    Exceptions
                        loans with Non-SOP Compliant Workout iDol/o,-l9)                   $485,539    $363,843          $607,235
                        loans with Business (Non -Real Estate) Collateral Not
                        Liquidated (Number)                                                     708            206           1,210
                       Business (Non-Real Estate) Collateral Asset Value at Charge
    Collateral
                       Off (Dollars)                                                        $57,134      $17,452          $ 96,815
    Exceptions          Loans with Real Estate Assets Not Liquidated (Number)                 2,756          1.398           4,113
                        Real Estate Collateral Asset Value ilt Charge Off (Do l/ars)       $140,331      $55,5:20        $215,142
                        Loans with Real Est ate and Business Assets Not Liquidated
                        (Doflars)lO                                                        $377,516    $251,767          $503,266

                        loans· UCC Lapsed at NDLRC (Number)                                     212                 43         381
 UCC Exceptions

                        loans· UCC Lapsed at NDLRC (Dollars)lI                             $113,011      $40,254         $185,769




28 DoHars values are in millions. 

19 The doHar value of the estimate indudes principal and interest. 

l<) The doHar value of the estimate includes principal and interest. 

) 1 The dollar value of the estimate includes principal and interest. 





                                                                            39
Appendix III: List of Exceptions




                    All
                                                                           -

                    Borrowers                                                                            UCC Financing
                    Transferred   All Borrowers                                          UCC Financing   Statements
                    to Treasury   Referred to     W orkout    Real         Business      Statements      Renewed by
                    Cross         Treasury        Analysis    Estate       Collate ral   Renewed by      Disaster
Sample   Loan #     Se rvicing    Offset          Performed   Liquidated   Liquidated    ND~ C           Servicing

                          NO                          N/A        N/A            N/A          N/A              N/A
   1

                          NO
                                       '"                        NO             N/A          N/A              N/A
   2
   3                      N/A
                                       '"
                                       N/A
                                                      '" 

                                                      N/A        N/A            N/A          N/A              N/A
   4                      N/A          N/A            N/A        N/A            N/A          N/A              N/A
                          NO                           NO        N/A            N/A          N/A              N/A
   5

   6                      NO
                                       '"
                                       NO              NO        N/A            N/A          N/A              N/A
   ,                      NO           NO              NO        NO             N/A          N/A              N/A
                          NO           NO                        N/A            N/A          N/A              N/A
   S
                          NO
                                                      '" 

                                                       NO        N/A            N/A          N/A              N/A
   9

  10                      N/A
                                       '"
                                       N/A            N/A        NO             N/A          N/A              N/A
                          NO                                     N/A            N/A          N/A              N/A
  11

                          NO
                                       '"
                                       NO
                                                      '" 
       N/A            N/A          N/A              N/A
  II

                          NO           NO
                                                      '" 
       N/A            N/A          N/A              N/A
  II
                          NO
                                                      '" 

                                                       NO        N/A            N/A          N/A              N/A
  14

                          NO
                                       '"              NO        NO             N/A          N/A              N/A
  15
         FOIAEx.4         NO
                                       '"
                                       N/A                       NO             N/A          N/A              N/A
  16

   n                      NO           NO
                                                      '"
                                                      NO
                                                         
       N/A            N/A          N/A              N/A
                          NO                           NO        N/A            N/A          N/A              N/A
  18

  19                      NO
                                       '"
                                       NO              NO        NO             N/A          N/A              N/A
  20                      NO           NO              NO        N/A            N/A          N/A              N/A
  II                      NO           NO              NO        N/A            NO           N/A              N/A
                                                       NO        N/A            N/A          N/A              N/A
  II
                          '"
                          NO
                                       '"
                                       NO                        N/A            N/A          N/A              N/A
  2l
  24                      NO           NO
                                                      '" 

                                                       NO        N/A            NO           N/A              N/A
  2S                      NO           NO              NO        N/A            N/A          N/A              N/A
  26                      NO           NO              NO        N/A            N/A          N/A              N/A
                          NO                           NO        NO             N/A          N/A              N/A
  l>

  28                      N/A
                                       '"
                                       NO             N/A        NO             N/A          N/A              N/A
                          NO                           NO        N/A            N/A          N/A              N/A
  29

  30                      N/A
                                       '"
                                       N/A            N/A        N/A            N/A          N/A              N/A
  II                      NO           NO              NO        NO             N/A          N/A              N/A
  32                      N/A          NO             N/A        N/A            NO           N/A              N/A




                                                       40
Appendix III: List of Exceptions

Table 5 Exceptions tOr Sample Loans Rc\'icwcd, by EXl'cplion TyJX:

                                All                                                                                UCC
                                Borrow" ..      All                                                                Financing
                                Transferred     Borrowers                                             ""
                                                                                                      Financing    Statements
                                to Treasury     Referred to    Workout                   Busineu      Statements   Renewed by
                                Cross           Treasury       Analysis    Real Estate   Collateral   Renewed by   Disaster
 Sample       Loan #            Servicing       Offset         Performed   Liquidated    Liquidated   NOlRe        Servicing

                                                      ' /A           '/A
    3l

    34
                                      '"
                                      '0              '0             '0
                                                                                '/A
                                                                                 '0
                                                                                             '0
                                                                                             '/A
                                                                                                           '0
                                                                                                           '/A
                                                                                                                         ' /A
                                                                                                                         '0
                                                                                                                         'iA
    "                                 '0              '0             '0         '/A          '/A           '/A

    "                                 '0
                                                      '"             '"          '0          '0            '/A           '/A
                                                                                                                         'iA
    37
                                      '"              '/A            '/A        '/A          '/A           '/A
    38                                '0
                                                      '"             '0         '/A          '/A           '/A           ' /A
                                                                                                                         'iA
    39                                '0              '/A
                                                                     '"          '0          '/A           '/A
                                                                                                           '/A           '/A
    40

    41
                                      '0
                                      '0
                                                      '0
                                                      '0
                                                                     '"
                                                                     '0
                                                                                '/A
                                                                                 '0
                                                                                             '/A
                                                                                             '/A           '/A           'iA
                                                                                                                         'iA
    42                                '0
                                                      '"             '0          '0          '/A           '/A

    "
    44
                                      '0
                                      '0
                                                      '"
                                                      '0
                                                                     '"
                                                                     '0
                                                                                 '0
                                                                                '/A
                                                                                             '0
                                                                                             '0
                                                                                                           '/A
                                                                                                           '/A
                                                                                                                         ' /A
                                                                                                                         'iA
    4S                                '0
                                                      '"             '0         '/A          '/A           '/A           ' /A
                                                                                                                         'iA
    46

    47
                                      '0
                                      '/A
                                                      '"
                                                      '/A
                                                                     '/A
                                                                     '/A
                                                                                 '0
                                                                                '/A
                                                                                             '/A
                                                                                             '/A
                                                                                                           '/A
                                                                                                           '/A           'iA
    48
             FOIAEx.4                 '"              '0
                                                                     '"         '/A          '0            '/A           '/A
                                                                                                                         'iA
    49

    so
                                      '0
                                      '/A
                                                      '"
                                                      '0
                                                                     '0
                                                                     '/A
                                                                                '/A
                                                                                '/A
                                                                                             '/A
                                                                                             '/A
                                                                                                           '/A
                                                                                                           '0            ' /A
                                                                                                                         'iA
    51                                '/A
                                                      '"             '0         '/A          '0            '/A
                                                                                                                         'iA
    52

    53
                                      '0
                                      '0
                                                      '"
                                                      '0
                                                                     '"
                                                                     '/A
                                                                                 '0
                                                                                 '0
                                                                                             '/A
                                                                                             '0
                                                                                                           '/A
                                                                                                           '/A           '/A
    54                                '0              '0
                                                                     '"          '0          '0            '/A           '0
    55

    56
                                      '"
                                      '0
                                                      '0
                                                      '0
                                                                     '0
                                                                     '0
                                                                                '/A
                                                                                '/A
                                                                                             '0
                                                                                             '0
                                                                                                           '/A
                                                                                                           '0
                                                                                                                         '0
                                                                                                                         'iA
    57                                '0              '0             '0         '/A          '/A           '/A           '/A
    58                                '/A             '/A            '0         '/A          '0            '/A           'iA
                                                                                                                         'iA
    59

    60
                                      '"              '"             '"         '/A          '/A           '/A
                                      '0
                                                      '"             '0          '0          '0            '/A           '0
    61                                '0              '0
                                                                     '"         '/A          '0            '0            ' /A
    62                                '/A
                                                      '"             '/A        '/A          '/A           '/A           '/A
                                                                                                                         'iA
    63                                '0
                                                      '"             '0         '/A          '/A           '/A
                                                                                                                         'iA
    64
                                      '"              '/A            '0         '/A          '/A           '/A
    6S
                                      '"              '/A            '0         '/A          '/A           '/A           '/A




                                                                     41
Appendix IV: Management Comments




               42 

                          U .S . S MALL B USINESS ADMINISTRATION 

                                     WASHINGTON , D .C. 20416 





                                         MEMORANDUM
                                          June 17, 2013


To:        John K. Needham
           Assistant Inspector General for Auditing

From:      John A. Miller
           Director, Office of Financial Program Operations

Subject:    Response to Draft Report on Project No. 11802

The Office of Financial Program Operations (OFPO) has reviewed the Office oflnspector
General's (O IG) draft audit report and has severa l comments below. While OFPO is open to
receiving constructive feedback recommending operational improvements, OFPO takes
exception with the manner in which this report was written. The report is overly lengthy and
contains fact ually incorrect and misleading statements, not the least of which is the report title. It
also provides narrow directives rather than useful and actionable recommendations. In addition,
OFPO takes exception with the adversarial manner in which the audit was conducted, and is of
the opinion that a collaborative discourse would have provided a more usefu l audit
report. OFPO welcomes the chance to change the audit relationship with the OIG to a positive
one in which both sides are willing to discuss differences. While improvements are possible, the
report fails to mention the valuable work that is being done at the National Disaster Loan
Resolution Center (NDLRC); namely, upholding the disaster loan program ' s mission of assisting
disaster victims whi le maintaining good stewardship of taxpayer funds.

The Small Susiness Adm inistration ' s (SSA) Disaster Loan Programs are the primary form of
federal assistance for the repair and rebuilding of non-farm, private sector disaster losses, and are
the only form ofSSA assistance offered to homeowners and renters . SSA's focus, with respect
to disaster loans, is to remedy the effects of natural disasters, while maximizing recoveries and
minimizing losses to the taxpayer. Due to the nature of the program, SSA's collateral position is
weaker than it typicall y is in SBA' s guaranteed loan programs, thus loan recoveries are more
difficult. It is for these reasons that SBA offers every delinquent borrower ample opportunity for
repayment relief, such as loan term restructure, workout, and payment deferments, prior to
resorting to enforced collection, including foreclosure or transfer to the U.S. Department of
Treasury (Treasury) for collection.

Treasury recognized the unique nature of SSA ' s disaster loans when it granted an Agency­
specific exemption from the statutory requirement to transfer nontax debts to Treasury for



                                                  43
collection. This exemption is described in a letter dated January 3, 2000, to SBA from th
Treasury Under Secretary of Domestic Finance. The letter is attached as Exhibit "A," and is
supported by an mternal Treasury memorandum, also attached as Exhibit " B." These documents
are referred to in the OIG draft audit report and in our response.

The Treasury memorandum, Exhibit " B," provides the rationale for the exemption as follows :

       " Disaster loans are authorized by law, and obtained by debtors, to help 

       victims of disaster recover from earthquakes, fires, floods, hurricanes, 

       tornadoes or other significant devastation. SBA points out that " .. 

       because of the slow economic recovery process resulting from widespread 

       devastation in many disaster locations .. . the workout process cannot 

       always be comp leted within 180 days of initial delinquency .. " 

       Accordingly, premature determinations to accelerate or liquidate disaster 

       loans would interfere with the program goal of assisting disaster victims to 

       overcome the effects of the disaster.. 


        Additionally.. . the Department of Justice (001) strongly asserted that 

        collateralized debt should not be referred for cross-servicing prior to 

        foreclosure because cross-servicing coll ection actions risk comprom ising 

        the Government's ability to coll ect against the collateral. To the extent the 

        subject class of debts is coll ateralized, DOJ ha s indicated that the 

        Government's financial interests would be best protected by granting an 

        exemption." (Exhibit D) 



The title of this audit report, "The SBA Did Not Effectively Manage Defaulted Disaster Loans to
Maximize Recovery on $752.6 Million in Loans from 2006 to 20 II The SBA Did Not
Effectively Manage Defaulted Disaster Loans to Maximize Recovery on $752.6 Million in Loans
from 2006 to 20 11" is misleading. It leads the reader to believe that the SBA had a reasonable
chance to recover $752.6 Million from defaulted disaster loans. This amount, $752.6 million, is
actually the remaining unpaid balance of delinquent, non-performing disaster loans at the time of
the audit. It does not indi cate the recoverable value, or estimated market value, of the loans
based upon the collateral status and repayment strength of the obligor(s). The statement assumes
that a 100 percent recovery rate on a distressed loan portfolio, secured mainly by junior liens
with little or no equity, is a legitimate possibility. OIG cannot snpport this assnmption and
does not otTer a reasonable alternative, rather, it leaps to the conclusion, wit/Wilt any
reference to statistical el,hlence that transfer to Treasury for cross-servicing would result in
complete recovery of the defaulted loan balances.

In order to realistically assess the NRDLC ' s effectiveness at maximizing recoveries and
minimizing losses, OFPO conducted an analysis of recovery data on loans resolved (Charged Off
or Paid In Full) in the NRDLC during fiscal years 2011 and 2012. The ana lysis focllsed on 932
loans with a combined default balance of$78.3 million that were either (1) referred to the
Treasury Offset Program (TOP) initi all y then transferred to Debt Management Service (OMS),
or cross-servicing, after real estate coll ateral was liquidated, and (2) loans in which collateral was
liquidated prior to charge off, and were referred to DMS immediately upon charge otT. The

                                                  44 

analysis found that SBA' s recoveries on this group of loans totaled $20.2 million, whi ch equates
to a recovery rate of26 percent. Of that amount $ 16 million, or80 percent, of the recoveries
were generated by SBA. These facts show the NRLDC ' s effectiveness at mi nimizing taxpayer
losses by utilizing internal Agency co llection tools in conjunction with those of Treasury's
Financial Management Service. While process Improvements and improved etticiencies are
possible, this strategy and its results should not be summaril y dismissed.

Additionally, the DIG asserts that the SBA' s policy of not referring loans with real estate
coll ateral for cross servicing is out of compliance with the Debt Collection Improvement Act
(DCIA) of 1996. The SBA' s policy was based upon interpretation of the January 3, 2000
Agency-specifi c exemption letter from Treasury (Exhibit "A" ) that states, "Once SBA
determines that a workout is not feasible, and in the case of coll ateralized loans, completes its
liqu idation/foreclosure, any remaining delinquent debts remain subject to DCIA ' s mandatory
transfer provisions." The DIG' s assertion is incorrect and appears to be based upon the DIG ' s
own interpretation of the letter. This despite the fact that just recently, in a letter dated March I,
2013 to the DIG, Treasury ' s Assistant Commissioner of Debt Management Services stated that
SBA' s interpretation of the January 3, 2000 exempt ion letter was understandable:

       " Based on the language in the [SBA exemption] letter, we understand how
       SBA cou ld have interpreted the letter as having exempted all collateralized
       debts from the transfer requirement. Following an inquiry from your
       offi ce [DIG] and discussions with SBA Director John Miller, Office of
       Financial Program Operations, and his staff in Jan uary 2013 , Treasury and
       SBA agree that SBA wi ll begin transferring collateralized debts to
       Treasury for coll ection when SBA has determined that foreclosure on the
       coll ateral is not feasible. SBA can provide additional details about this
       process." (Exhib it C)

After a number of discussions with OIG personnel, they conti nue to assert the Agency is not in
compli ance with the DCIA referral requirements fo r defaulted loans with collateral. As already
noted, this position is untenable given Treasury' s position as expressed in their letter to SBA
quoted above. The SBA' s policy that was in place at the time of the audit was consistent with
the Agency-specific exemption letter SBA received, and OIG' s assertion of non -compli ance is
unfounded. Moreover, all eli gible delinquent loans, including coll ateralized debt, were referred
to the TOP.

TOP is the most effective collection tool at Treasury, as evidenced by Treasury data that shows
60 percent of recoveries on loans referred for cross-servicing were generated through the offset
program. The audit report correctly states that all non-exempt delinquent loans are transferred to
TOP regardless of collateral status. The report further states that one or more debtors in
approximately S5 percent of the loan sampled were not referred to TOP. In recent fo llow-up
conversations with the OIG auditors, OIG disclose(1 t/tat no mlt/itionll/llnll/ysis took place to
determine whether or not these (febtors had stam/art! exemptions from IIwndatory trtmsfer to
Treasury. SBA and all federal agencies are statutoril y barred from referring borrowers in
exempted classes. The most common exempted classes incl ude borrowers that have filed
bankruptcy, are facing foreclosure or other litigation proceedings, and borrowers that have
settled their debts. This is another example where, without due diligence, a blanket statement is

                                                  45
mi sleading. SBA views TOP as an extremely effective tool to collect delinquent debt, and
strive s to utili ze the program whenever possible.

SBA maintains a close working relationship with Treasury' s Financial Management Service wit h
the goal of maintaining compliance with federal debt collection guidelines, and as such, is
continually revising debt collection poli cies and procedures in order to efficiently coll ect
delinquent debt and minimize taxpayer losses. After recent discussions, SBA and Treasury are
in stituting a process to refer SBA collateralized debt s with minimal or no equity for cross­
servicing. The new process will allow Treasury to aggressively collect these debts without
compromising future equity positions on real estate collateral. As the new process takes shape, it
is in the best int erest of the taxpayer, and the disaster victims, to develop a plan to evaluate these
loan s and determine if the borrower' s finan cial condition has improved to the point where they
are able to resume payments, enter a workout, or settle their debt. SBA wi ll also evaluate the
loans to determine if equity position has improved to the point where the property can be
foreclosed upon before transfer to Treasury cross-servicing. Thi s plan was discussed at a
meeting with SBA, the DIG, and Treasury in February 2013 but is, however, inconsistent with
the recommendation made in this audit report.

Finally, OFPO identified several inconsistencies and/or inaccuracies in thi s document . In
particular, the following are a few statement s needing immediate clarification in the draft audit
report.
    • 	 On page 7, the OIG li sts the many tools that Treasury utilizes in the cross-servicing
        program. DIG neglected to mention that the SBA also utilizes multiple co ll ection tools,
        including, demand letters, SBA-initiated telephone calls with borrowers and the
        negotiation of repayment arrangements, credit bureau reporting, administrative wage
        garni shm ent, referral to the Department of Justice for litigation, and reporti ng of unpaid
        debts to the Internal Revenue Service as potential income to the debtor (of which the
        information is supplied by Treasury but SBA executes issuance of the 1099c).
    • 	 On page II , the DIG indicated that the NDLRC abandons collateral at the time of charge­
        ofT. Thi s is an incorrect statement. Only current efforts to recover on real estate
        collateral are abandoned due to insufficient equity, but the lien on the collateral is not
        released. It is SBA' s full intention to review these loan s after time to identify potential
        equity or lien position improvements. In SOP 50 52 I and SOP 50 5 I 2, states, "Charge
        off is the process by which SBA recognizes a loss and removes the uncollectible account
        from its acti ve receivable accounts. A charge off does not affect SBA's rights to collect the
        loan from the borrower and does not reduce SBA's ability to proceed with any available
        remedy. "
    • 	 On page 12, the DIG makes an erroneous assumption that with respect to enforced debt
        coll ect ion, either through foreclosure or suit s against obligors or guarantors, the Agency
        must sue within 6 years of default. There is currently much case precedent, including
        most of the United States Courts of Appeal that holds that there is no statute of
        limitati ons for foreclosure actions brought by the federal government. So foreclosure
        suits would not be barred long after the 6 years. A number of the decisions involve SBA
        loans. It is also erroneous to automatically conclude that 6 years from the date of default
        a deficiency suit is barred. A number of varying circumstances in cases give SBA some
        leeway to avoid a statute ofl imitations problem. For example, correspondence sent by the
                                                  46
       debtor or guaranto r may be construed as a reaffirmation of the debt , such as compromise
       offer s that we did not accept, or failed workout s the restart the running of the statute of
       limitations. At least one state allows coll ection of the debt for those amortization
       payments that are out side the limitati on period. Therefore, it is too simplistic to assume a
       debt is not enforceable if it has been in default for 6 years.
   • 	 On page 26, the OIG identifi es a Policy Notice that indicated that " Until the issuance of
       thi s SOP [SOP 50 52 2], the di saster loan liquidation pol icy and procedures contained in
       SOP 50 51 2 will remain in fu ll force and effect." Whil e that policy notice has expired,
       the Office of Cap ital Access, of which OF PO is a component office, has reported
       annuall y on the status of the SOP 50 52 2 issuance, which is expected for completion in
       September 2013 . Additionall y, the OIG has received regular updates since 20 10
       regard ing this di saster loan SOP update - most recent ly in March 0[2013 .
   • 	 On page 18, the OIG describes their sample of 18 loans, of which 14 were transferred to
       servicing after making 3 on time payments, but were subsequently charged ofT.
       However, as of Apri l 30, 20 13, OF PO conducted a review of the entire population of
       loans returned to servicing by the NDLRC between July I , 20 II and June 30, 20 12The
       review found that 1,737 of2,20 1 loans, or 79%, remained in servicing or were paid in
       full , as indicated in the fo llowing chart. Of these loans, only 6% were charged ofT.


                                              Status of Santa RTS
                                               7/1/11 - 6/30/12




SBA and OFPO value the OIG' s role as an independent, objective resource for useful
recommendations that lead to operational improvements and increased vigilance in the protection
of taxpayer fund s, and welcomes constructive feedback in these areas as they are critical
components of meeting the SBA mi ssion. The report presents a series of recommendation s, with
34 instructio nal sub-recommendations, many of which the SBA has implemented or is in the
process of implementing. Some recommendations may be too prescriptive to allow the SBA the
fle xibi lity to manage operations and balance limited resources. This is not conducive to good
management and does not lend itse lf useful ly for the application of process improvement . The
best results are achieved when the OIG and SBA work together to identify deficiencies and a
plan to im plement correct ive actions in support of the Agency' s mission.

Taking into account the above narrative, OFPO is providing additional information in response
to the O IG recommendatio ns as fo ll ows:

I. 	 We recommend that the Director, Office of Financilll Program Operation.'i mam/llfe that
     the NDL RC comply with the DCIA, del'elop, lIml implem ent 1Il1l1lfigem ent controls and

                                                 47 

   processes related to DEBTS, to ensure
      a. 	 That all charged offloans now designated with loan status comment code "66" are
          transferred to Treasury for cross servicing immediately.
      b. 	 That the NDLRC does not designate loans charged offin the future to block their
           transfer to Treasury for cross servicing because the loans have un-liquidated real
           estate collateral.

OFPO partially concurs with this recommendation. Treasury and OFPO are currently
developing a new process for the transfer of collateralized debt. The new process will allow
Treasury to aggressively collect these debts without compromising future equity positions on real
estate collateral. Additionally, the immediate transfer of charged off loans coded "66" is neither
prudent nor reasonable as the economy has improved and loans need to be reviewed to determine
if the equity situation has improved and either the borrower can resume payments, enter a
workout or compromise, or the property can be foreclosed upon before transfer to Treasury cross
servicing. As indicated in the narrative above, this was discussed as the plan at the February
2013 meeting. OFPO will develop a plan to transfer the charged off debt coded "66" in a
prudent manner and continue to update the OIG on the progress of this process development.


2. 	 We recommend that the Director, Office ofFinancial Program Operations mandate that
     the NDLRC comply with the DCJA by developing and implementing management controls
     and processes related to DEBTS, to ensure
     a. The Transfer ofall legally enforceable debts, already charged off, to Treasury for cross
         servlcmg.
     b. That all debtors associated with charged offlegally enforceable debts, required to be
         transferred to Treasury for cross servicing, are successfully transferred.
     c. Monitoring ofLoans in litigation after charge off, to confirm transfer to Treasury for
         collection iflitigation is dismissed.


OFPO concurs with this recommendation. After completion of the process development
references in recommendation 1, OFPO will evaluate existing management controls to ensure
legally enforceable debts are transferred to Treasury appropriately and develop controls as
necessary.


3.       We recommend that the Director, Office ofFinancial Program Operations mandate
that the NDLRC complies with the DCJA by developing and implementing management
controls and processes related to DEBTS, to ensure
    a. 	 The Transfer ofall legally enforceable debts, already charged off, to Treasury for cross
         servlcmg.
    b. 	 That all debtors associated with charged offlegally enforceable debts required to be
         transferred to Treasury for cross servicing are successfully transferred.
    c. 	 Monitoring ofLoans in litigation after charge off, to confirm transfer to Treasury for
         collection iflitigation is dismissed.

This audit recommendation is duplication of recommendation #2. See response above.

                                               48
4.       We recommend that the Director, Office ofFinancial Program Operations, develop
and implement management controls and processes related to WORKOUTS, to ensure
    a. 	 An assessment is made to determine the feasibility ofestablishing a workout group for
         the sole purpose ofresolving troubled debts and, iffeasible, establishes such a group.
    b. 	 Staff consistently determines whether restructuring a delinquent loan would help the
         borrowers repay when providing a workout.
    c. 	 That NDLRC staff ascertains whether the borrower's cash flow is adequate to satisfy
         the terms ofthe workout plan when determining whether a workout should be
         provided.
    d. 	 The Liquidation Collection Program and all related guidance conform to the SOP
         governing NDLRC operations and the liquidation ofdisaster loans.
    e. 	 All staffreceives formal training in credit management, debt restructuring, debt
         collection, the Treasury Managing Federal Receivables Guide, and Agency policies
         and procedures.
   f 	 All necessary actions are taken prior to charge offofthe loan, including offering the
         borrower a workout, evaluating the loan for potential restructuring, analyzing
         borrower repayment ability, andproviding workout terms to the borrower in writing.
   g. 	 That a system is established for tracking the performance ofworkouts to measure the
         dollars recovered and determine whether workouts result in significant recovery of
         delinquent debt.


OFPO concurs with this recommendation. Staff has been offered training on multiple occasions,
including training from the Department of Treasury on Debt Collection in FY2012. OFPO will
continue to coordinate additional training for applicable staff members. Additionally, a charge­
off checklist has been developed since the audit and is in use by Santa Ana NDLRC staff to
ensure all necessary actions take place prior to charge-off. Of those objectives not addressed,
OFPO will develop an implementation plan by August 30,2013.


5.      We recommend that the Director, Office ofFinancial Program Operations develop and
implement management controls and processes related to LIQUIDATION, to ensure the
NDLRC:
   a. 	 Evaluates all loan collateral (both real estate and other assets) for liquidation potential
        within 180 days ofthe loan becoming delinquent.
   b. 	 Initiates liquidation action for all loan collateral (both real estate and other assets)
        within 180 days ofthe loan becoming delinquent if liquidation will result in recovery of
        a portion ofthe debt (and the costs ofliquidation do not significantly exceed the
        anticipated recovery amount).
   c. 	 Liquidates all collateral with a recoverable value prior to loan charge off.
   d. 	 Creates and maintains historical records ofthe collateral liquidated and dollars
        recovered resulting from the liquidation of all collateral (both real estate and other
        assets).
   e. 	 Discontinues the practice ofcharging offall defaulted loans secured by manufactured
        housing without first evaluating the collateral for potential recovery.
   f. 	 Monitors and tracks all loan collateral (both real estate and non-real estate) associated

                                                49 

         with each loan assigned to the NDLRC
   g. Maintains historical records indicating the pertinent loan details for which collateral
         was liquidated, including the dollars recovered from liquidation.
    h. Tracks the total real estate and non-real estate collateral available for liquidation from
         the loans assigned to the NDLRC
    I.    Process ofmonitoring real estate and non-real estate collateral available for
         liquidation includes the capability to compare the dollars recovered through
         liquidation to the total collateral value.
   J. 	 Provides clear explanations for any variances between anticipated and actual dollars
         recovered through liquidation.
    k. 	 StO:.ffresponsiblefor liquidating collateral receives collateral evaluation training.

OFPO partially concurs with this recommendation. OFPO will conduct a review of each
objective and conduct a cost benefit analysis, if applicable, to determine inclusion in the
implementation plan. An implementation plan will be developed by August 30, 2013.


6.       We recommend that the Director, Office ofFinancial Program Operations ensure that
the Disaster Loan Servicing Centers and the NDLRC develop and implement a process to
ensure that
    a. 	 All security agreement expiration dates associated with assigned disaster loans are
         identified and tracked so they are renewed prior to their lapse or expiration dates.
    b. 	 The Disaster Loan Servicing Centers provide the NDLRC the anticipated security
         agreement expiration dates for loans transferred from the centers to the NDLRC

OFPO concurs with this recommendation and will develop an implementation plan by August
30,2013.

7. 	 We recommend that the Director ofthe Office ofFinancial Program Operations
     a. 	 Implement controls to ensure the NDLRC only approves offer-in-compromise
       settlements as authorized by the Standard Operating Procedures.

OFPO disagrees with this recommendation as the assertion in the draft audit report indicates that
all offers in compromise for loans exceeding $1,000,000 must be handled by the Department of
Justice. Under the Small Business Act 15 U. S. C 634 (b) the SBA Administrator is given
independent compromise (i.e. settlement) authority to settle SBA claims without limitation.
Therefore, DOJ approval is not needed except when the case is in litigation as they have
authority in those situations.


8. 	 We recommend that the Director, Office ofFinancial Program Operations
     a. 	 Re-evaluate the structure and design ofthe NDLRC to ensure that its operations are
          designed to maximize recovery of delinquent debts.
     b. 	 Develop and publish a clear mission statement for the NDLRC that clearly aligns with
          Federal debt collection objectives.

                                                50
   c. Updllte the SOP, governing detinquent llisaster 101ln collection lmd asset tiquit/ation to
      incorporllte the Federal debt collection objectiJ'e!:i anti requirements spec~fied by the
      DC/A.
   d. Establish 1I perjormllnce manllgement process that emphasize.. ejJectiJ'e debt recOl'ery.
   e. Ensure that routine procedural changes, such a.\· mod~fying the/ormula/or
       el'lt/IUlting collateral, are incorporatell into the SOP.


OF PO concurs with this recommendat ion. In February 20 11 , SBA initiated a disaster loan
servicing process improvement effort, which exp lored several efforts for improvement. Among
those improvements were those identifi ed by the OIG. Additionall y, SBA is updati ng its
policies, includi ng the Standard Operating Procedures for Disaster Loan Servicing and
Liquidation, which we anticipate will be cleared and in use by the end of fiscal year 20 13.
OF PO will review these recommended objectives and prepare an impl ementat ion plan by August
30, 20 13.


Please let us know if you need additional informat ion or have any questions regarding our
response.




                                               51 

Exhibit I: Treasury Memorandum Approving Workout Exemption




                            S2 

                            DEPARTM€NT OF THE TREASURY
                                      WASI"(INGTQN , O,C,
                               J.nuuy 1, 1000




 Mr, John L, Gray
 A.ssociafc Deputy Administrator for Capital Access
 U,S. Small 3wines!l Administration
 Wasbiwon DC 20416
      ________     ::r.~.
Dear _ "             ;..--­
We have reviewed your request ~ the Small Business Administration (SBA) be dc.sigualed a
debt collection center, and also a substlCJuc:nt request for an eJternption &om the maadalory
transfer of debt provi$ions oCthe Debt Collection Improvement Act of 1996 (OCIA), AlthQugh
we have not designated SBA as a debt coUection ccnter, we have approved SBA's roquest for an
exemption from mandatory transfer ofdisaster and regular busin~s loans over 180 days
delinquent that are in active wolkout.

The decisioa to deny SBA's October ]0, 1997, requ~r,. which was supplemented by information
subrnined on ApollO, 1998, to be designated adebt cotlection center for putposes of servicing
SBA's debts is based on the rcsuJU of the evaluation conducted by the Fina.r,cial ManagetTlenl
Service (FMS) st.1ffand b.u bceIl communicated to your stalT, fMS' detennination W&>
subsequently reviewed and confirmed by Ihe Awtication R~ew Committee. which i$
comprised of officials from the Departmental Offices ofTIUSUS)' and the Department of Justice,
The'decision jj cons.irtc:nt with the broad mandate and the responsibility granted to Treasury
under the OCLA to provide centraliUJd administration iJld ovcnight of the delinquenl debt
collection program.

During the ~view and analysis ofthe request to be designated as a debt collection center, FMS
worked with SBA to better Wldentand SBA ~s and to identify appropriate solutions, FMS
encouraged SBA to review its debt portfolio and «Insider whether, for certain debts. an
~emption from the DCIA requirement to transfa debt 10 TfUSWYwas more appropria1c: than
receivinSlpproval as & debt center, Subsequent to those discllssions, FMS received your letter
dated March 26. 1999, requesting an'exemption for certain SeA debt over 180 days delillquent ,

As permitted under the OC~ I approve yoU( request (or cJtemption from ma.nd.al:ory transfer of
disaster.and regular business loans over lBO days delinquent that are in active workout. The
ex.ernption TOquest was evaluated based on standanis and bctors descnCed in FMS' rule
concerning the Transfer ofDebt5 to Treasury fo r Collection, published in the Federal Register on
ApriI2B. 1999. Based on that evaluation, we determined tha1 mandatory transfer oflh.cse debts
would interfere with program goals, and, in the case ofcollateralized debt, would nol be inlhr:
best interests of the United Statco,




                                                  S3 

Pa ~e   2 - Mr. lohn L. Gray



This exemption applies only to the specific class of debts id~tified above. Once SDA
dctc:m:lines [bat a workout is not fqsible and, in the case ofcoUatcraliud IQ8llS, complet~s its
liquid&tioalforcclosuto, all) remaining delittqUl!llt debts f(.RJain :!Ubject to the DC(A' s mandatory
transfer provisions. Additionally, aU other dcbb OVer 180 days delinquent are Nbjet.t to
mandatory IJ"aD.'IIfer to Treasury unckt the OClA. urue.u ... specific. statutory Dr rcgub.tory
CICem.priOIl applies.

We Itlok. forward. to your coo.tizlued cooperation iI3 we complete the implementation oflhc debt
coUection authorities under the DCIA.

                                       ~lY. /1                )
                                        FOIAEx.6

                                        OffYJle:nsler
                                        Una&- Secretary for Domestic Finance

cc:      Donald Hammond
                App
         St CveD,
         KAthleen Haggetty




                                                         S4
Exhibit II: Treasury Memorandum Explaining Support for Workout Exemption




                                    ss 

 Page 2 - Small Business Administration's Requests



 The DCIA authorizes the Secretary of the TreasW)' to designate debt collection centers on the
 basis of their performance in collecting delinquent debt. In December 1996, the Financial
 Management Service (FMS) published policies, standards, and procedures for agency application
 to become a debt collection center (FMS Guidelines). The FMS Guidelines allow for two levels
 of application: 1) application for designation as a debt collection center for purposes of collecting
 agen.:y.owned debts, referred to in the FMS Guidelines as a waiver, and 2) application for
 designation as a debt collection center for collecting agency-owned and other Federal debts,
 referred to as cross-servicing. Both designations are intended to recognize that certain Federal
 debts have unique servicing requirements, and tranSfer to FMS for collection may nOt be cost·
 effective.

 We ire recommending denial of SBA 's request to be designated a debt collection cenler for the
 following reasons:

 (I) 	   SBA's compliance with the OCIA requirement to b'ansfer debts 10 TreasW)' for collection
         (cross-servicing) enhances and supplements SBA's debt collection activities without
         interfering with SBA's debt collection process. SBA has transferred S647M of debt to
         FMS, resulting in collections of $S.6M as ofScptember 30, 1999.

(2) 	    SBA's use of private collection contractors declined priO£ to its participation in cross­
         servicing, indicating that SBA is not maximizing its use ofprivate collection contractors.
         All debts tefmed 10 FMS for cross-servicing may be referred 10 private collection
         contractors under the new Government-wide contraCt.

(3) 	    The absence of any unique servicing requirements was a critical factor in the evaluation.

The Application Review Corrunin«, which is comprised of officials from the Departmental
Offices ofTreasW)' and the Department of Justice, concurred with FMS' recommendation to
deny the waiver request.

While the letter denying SBA 's debt collection center application was proceeding through the
approval process, SBA submitted a letter dated March 26, 1999, requesting an exemption from
cross.servicing for a class of debts over 180 days delinquent thaI are in aClive workout The
exemptioll request was submitted in the event that SBA's debt collection celllCt application was
denied. The exemption request covers delinquent disaster and business loans that are in active
workout

Based on the factors detailed below, we recommend that SBA's second request be granted.




                                                   57 

 Page 3 - Small Business Admininration', Reque5u



 The DClA. =lWres the heads of Fedef&lagencies to transfer debts owed to the United States
 which ~ more thM IS O days delinquent to Treasury fot debt collection action. The OClA
 eontWns specific statutory exemptions from mandatory transfer of delinquent debts to Treasury
 for debts that (I) are in litigation or foreclosure; (2) will be disposed of under M asset sales
 program; (3) have been referred to a private collection conlrletor; (4) have been refetTed to a
 TrelUUry-desigruued debt collection center; add (5) will be collected under internal offset within
 ) years. Additionally, the DCIA authori:teS the Secretary afthe Treasury to exempt any other
 class I)f debts from mandatory transfet to Treuury upon the request of an agency or otherwise.
 ~)l U.S.C. § 3711(g).


FMS issued a finall'l.lle concerning "Transfer of Debts to Treuury for Colleetion." (See 64 FR
 2290~, April2S, 1999; codified at 31 CFR 2S5.12) The final rule established the s!lUIdard for
consideration ofexemptions from mandatory ttansfer as whether such exemption is in the best
utterests of the Go\"eITl.I1lent, considering the following factors: ( I) protection of the
Government', financial inlerC5ts; (2) interference with the goals of the program under which !he
debts arose; IIlId (3) consistency with the purposes ofme OClA.

SSA IwJ req~sted an exemption for debts ....iUch are more than ISO days delinq~nt which are i.'1
active workout, thai is, where SBA il attempting to bring the debts curttnt with debt $CJVicing
tools (such 1$ rescheduling or deferment ofpaymenl$), rather than liquidating or foreclOSing on
the de;ts. SBA reported that as of December 3 1, 1998, there were $88 million of delinquent
debts ...ruth fell into this category. Approximately 83 pen:ent of the subject dan of dew
consis:ed of delinquent disaster loans ($7) million· $22 million in home loans and $51 million
in business loaruo). The remaining 17 percent ($IS million) represented debts nom SUA's
regular bwiness programs.

SBA also reported that as ofCY 1995, 5.6 percent ($2.IS6 billion) ofSSA'5 $39 billion portfolio
of di.re~ and gu&nlIIteed loan obligatiOns consisted of debt.!! over J 80 days delinquent. Ofthc
$2.IS6 billion of debts over ISO days delinquent, approximately 96 percent ($2.098 billion) was
either (I) In1nsferred to TreasurylFMS in accordan~ with the DCIA ($578 million. 26.44
percem), or (2) exempt from mandatory transfer I.D Treasury ($ 1.494 billion in
liquidationlforeelosure, and $26 million serviced by private lenders.lthird parties· 69.S1 percent).
These JtlltislieJI indicate that exemption of the delinquent disaster and business loan debu would
afTeet relatively small amounts of SBA 's overall portfolio (.pproximately 0.22 percent), and of
SBA'~ debt.!! over 180 days delinquent (approximately 4 peKent). These are the most current
data .vailable from SBA.

Disaster loans are authorized by law, and obtained by debtors, to help victims of disaslen recover
from c.:uthqunlc:~, fires, floods, hurricanes, tornadoes or other significant devastation. SBA
points 0111 chal ..... because of the slow economic recovery process resulting from ....idespread
deva.sts:ion in many disaster locatiolUl ... the workOllt process cannot always be completed within




                                                    58 

Page 4 - Small Business Administration's Requests



180 days of initial delinquency.... " Acconfin&!y, premature determinations 10 accelerale or
liquidate disaster loans ....."Ould interfere v.ith the program goal of assisting disaster vietims to
O\'ereome the effects of the disaster.

Similarly, in attempting to restructure or other.o.rise workout its delinquent business low, SSA is
attemp1ing to keep the small business in operation. Finaneial analysis, development of an
aeeeptable bUJiness plan and loan restlUcture oce.uionally cannot be completed in 180 days of
default. While these loans are all collateralized, premarurc determinations to liquidatc or
foreelosc would interfere with the program goal of keeping the small business operational.

Additionally, in a letter dated NO\'ember 23, 1998, concurring in Ihe denial of SBA 's application
for debt eollection center designmion. the Department oflustice (D01) strongly asserted that
collateralized debt should not be referred for cross.servicing prior to foreclosW"C beeause erou­
servieing collection attioll!l risk compromising the Go\'emment's ability to collect against the
collateral. To the extent the subject e1ass of debts is collateralized, DOl has indicated WIthe
Govtrmlent's financial interests would be best protected by granting an e}[emption.

Considering all applicable factors, it is in the best intere5ts orlhe Govenuneot to grant SSA's
request for an c)(cmption from the statutory requirement to transfer the identified e1ass ofdcbts to
Treaswy for eollection attion.


Attachment




                                                      59 

Exhibit III: Treasury letter Confirming Debts with Collateral 

          Not Exempt from Treasury Cross Servicing 





                             60 

                                   DEPARTMENT OF THE TREASURY 

                                    FINANCI A L MANAGEMENT SERVICE 

                                        WASHINGTON. D.C. 20227 


                                              Mlu'Ch 1, 2013



Mr. John K. Needham
A$si5taPt illij)tCtor General for AlJditing
Office of Inspeclor General
U.S. Small Business Admini5trIltKln

Dear Mr. Needham,

rhis letter addresses your question concerning an exemption granted by tbe U.S. Dcpa.rtmcnt oftlle T~tuy
(Treasury) 10 the Small Business Administntion (SBA) from the staMory requin::mcnt to lransfer delinquent
oontax debts to Treasury for collection. The Debt Collection Improvement Act of 1996 (OCIA) perally
requires Federal agencies to transfer noolax debts more tban 180 days delinqUCllt to the U.S. Department of
the Treasury (Treasury) for collcx.'1ion. By letter dated January J, 2000, Treasury approve« SDA's request for
an exemption from mandatory transfer of disaster and regular business loans over 180 days delinquent that
are in tetio.'e workout. At the liJ1'e. Treasury detcnnined ,,* maodalory transfer ofthese dt:bls would
interfere with program goals and. in tbe CIIst ofeolJllr.erali7.ed debt, would not be in the best interests oftile
United Stales.

Based on the language in the letter, we understand Dow SBA could have interpreted tbe letter as having
exempted .11 collateralized debts from the transr« requirement. FollowinS an inquiry (rom your offICe a.nd
discussions wilh SBA Director John Miller, Office of Financial Program Opcrtltions. and his st&1f in JIUIWlr)'
201 J, Treasury and SBA agree that SBA will begin transferring collateralized debts to Treasury for
collection when SBA has determined that foreclosul"t'l on the coltatml i9 001 feasible. SSA can provide
additiOllal details about this procCS9.

Treasury al\d SOA staff are ....-atking together to facilitate the transfer 10 Tn:asuf)' for eolkc;tion all eligible
collaterali7.ed dehu. ~ on preliminary pl.nning discu.uions, we C;II;PCCI transfcr1 to ber,in in Spring 20 13,
Because thege debts are oollateralited, Tn!ti-ury and SBA agree that Treasut)' will not compromise any debts
without approval from SUA, This process will allow SBA 10 determine whether the compromise value is
greAter than potential collection ....Jue &om eollateralliquidatiOft. TreWlury IlI\d SBA will continue to assess
the efTeeth'eness "fthis approach with respeet to compromising the colJatetalized debts in !his portfolio.

We look forward to continuing OUt debt oollection partnership with SBA.

                                                     Sincerely.

                                                     FOIA Ex. 6

                                                    Jcffrq- J. Scbnllocli.
                                                    Assistant Commissioner
                                                    Debe Management Services

cc: John A. Miller




                                                   61 

